<html>
<title> - RESTORING FORESTS AFTER CATASTROPHIC EVENTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
              RESTORING FORESTS AFTER CATASTROPHIC EVENTS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, July 15, 2004

                               __________

                           Serial No. 108-103

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                             _________

                     U.S. GOVERNMENT PRINTING OFFICE
94-996 PS                WASHINGTON : 2005


______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               Stephanie Herseth, South Dakota
Tom Osborne, Nebraska                George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Dennis R. Rehberg, Montana           Ruben Hinojosa, Texas
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Tom Cole, Oklahoma                   Joe Baca, California
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Scott McInnis, Colorado              Tom Udall, New Mexico
Walter B. Jones, Jr., North          Mark Udall, Colorado
    Carolina                         Anibal Acevedo-Vila, Puerto Rico
John E. Peterson, Pennsylvania       Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Stephanie Herseth, South Dakota
J.D. Hayworth, Arizona               VACANCY
Jeff Flake, Arizona                  VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 15, 2004..........................     1

Statement of Members:
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     3
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     3
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Barry, Hamlet J., III, Director, Denver Water Board..........    39
        Prepared statement of....................................    41
    Bartuska, Dr. Ann, Deputy Chief for Research and Development, 
      Forest Service, U.S. Department of Agriculture.............     3
        Prepared statement of....................................     7
    Hartzell, Cate, Ashland City Councilor, City of Ashland, 
      Oregon.....................................................    50
        Prepared statement of....................................    53
    Sessions, John, University Distinguished Professor and 
      Stewart Professor of Forest Engineering, College of 
      Forestry, Oregon State University..........................    34
        Prepared statement of....................................    35
    Shepard, Ed, Assistant Director, Renewable Resources and 
      Planning, Bureau of Land Management, U.S. Department of the 
      Interior...................................................    12
        Prepared statement of....................................    14
    Thomas, Steven R., Assistant State Forester, Oregon 
      Department of Forestry.....................................    29
        Prepared statement of....................................    32

Additional materials supplied:
    The Forest Guild, Statement submitted for the record by Laura 
      McCarthy...................................................    63
    Franklin, Dr. Jerry F., Professor of Ecosystem Studies, 
      College of Forest Resources, University of Washington, 
      Seattle, Washington, Statement submitted for the record....    21
    Jaegel, Anton R., Supervisor Elect, Trinity County, 
      California, Letter submitted for the record................    64


    OVERSIGHT HEARING ON RESTORING FORESTS AFTER CATASTROPHIC EVENTS

                              ----------                              


                        Thursday, July 15, 2004

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:01 a.m., in 
Room 1324, Longworth House Office Building, Hon. Greg Walden, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Walden, Renzi, Inslee, Kildee and 
Herseth.

  STATEMENT OF THE HONORABLE GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. The Subcommittee will come to order. The 
Subcommittee is meeting today to hear testimony on restoring 
forests after catastrophic events. Under Committee Rule 4(g) 
the Chairman and the Ranking Minority Member can make opening 
statements. If any other members have statements, they can be 
included in the hearing record under unanimous consent.
    As long as there have been forests, there have been natural 
events that have impacted them: wind storms, ice storms, 
tornadoes, hurricanes, volcanoes, and of course, fire. In fact, 
most of the forests we are familiar with today have been 
influenced or created by these disturbance events, such as the 
fire-dependent forests that Native Americans helped to 
establish by regularly setting fires to reduce brush and create 
habitat for game. So these are not new phenomena or necessarily 
bad ones. When these events, however, are extraordinarily large 
or disruptive, they can do enormous and I believe long-lasting 
damage to wildlife habitat, water and air quality, and to 
communities. Particularly, as of late, we have seen this in the 
aftermath of catastrophic fire, and especially in the West.
    Since 2000, more than 23.7 million acres have burned as a 
result of wildfire. This includes huge mega-fires such as the 
B&B fire last year in Central Oregon, that burned over 90,000 
acres, half of it in Northern spotted owl habitat. In 2002, in 
Southern Oregon, the Biscuit fire burned nearly half a million 
acres and demolished 80,000 acres of owl habitat.
    In 2002, the Hayman fire, much of it in Mr. Tancredo's 
district in Colorado, not only threatened homes and 
communities, but devastated much of the critical watershed for 
the City of Denver. The largest fire in that state's history, 
it dumped colossal loads of mud and soot into Denver's largest 
supply of drinking water, costing the taxpayers millions.
    Recognizing that 190 million acres of Federal lands are at 
a high risk of catastrophic fire, it goes without saying that 
these large fires are going to be a part of our lives for 
years, if not decades, to come. The primary question then that 
this hearing will address today is what can be done to 
rehabilitate and reforest these lands after catastrophic 
events, including fires, in order to restore habitat and 
stabilize soils, and protect watersheds and communities. We 
will focus primarily on case studies and what we have learned 
from the trials and errors of past experiences, such as the 
clean-up after the eruption of Mt. Saint Helens in 1982, the 
post-fire restoration after the Volcano Fire in Northern 
California in 1960, or the salvage and reforestation efforts in 
the forties and fifties after the Tillamook burns.
    Although the science may not be complete, there is much we 
do know, and history can help instruct us as we face future 
catastrophic events and our attempts to apply our best 
knowledge to rebuild forests.
    [The prepared statement of Mr. Walden follows:]

 Statement of The Honorable Greg Walden, a Representative in Congress 
                        from the State of Oregon

    As long as there have been forests, there have been natural events 
that have impacted them; windstorms, ice storms, tornados, hurricanes, 
volcanoes and, of course, fire. In fact, most of the forests we're 
familiar with today have been influenced or created by these 
disturbance events, such as the fire-dependant forests that Native 
Americans helped to establish by regularly setting fires to reduce 
brush and create habitat for game. So these are not new phenomena or 
necessarily bad ones. When these events, however, are extraordinarily 
large or disruptive they can do enormous and long-lasting damage to 
wildlife habitat, water and air quality, and to communities. 
Particularly, as of late, we've seen this in the aftermath of 
catastrophic fire.
    Since 2000, over 23.7 million acres have burned as a result of 
wildfire. This includes huge mega-fires such as the B&B fire last 
year--burning over 90,000 acres, half of it in Northern spotted owl 
habitat. In 2002, also in my district, the Biscuit fire burned nearly 
half a million acres and demolished 80,000 acres of owl habitat.
    In 2002, the Hayman fire, much of it in Mr. Tancredo's district, 
not only threatened homes and communities, but devastated much of the 
critical watershed for the City of Denver. The largest fire in state 
history, it dumped colossal loads of mud and soot into Denver's largest 
supply of drinking water, costing the taxpayers millions.
    Recognizing that 190 million acres of federal lands are at a high 
risk of catastrophic fire, it goes without saying that these large 
fires are going to be a part of our lives for years, if not decades, to 
come. The primary question, then, that this hearing will address today 
is what can be done to rehabilitate and reforest these lands after 
catastrophic events in order to restore habitat and stabilize soils. We 
will focus primarily on case studies and what we've learned from the 
trials and errors of past experiences, such as the clean-up after the 
eruption of Mt. Saint Helens in 1982, the post-fire restoration after 
the Volcano Fire in Northern California in 1960, or the salvage and 
reforestation efforts in the forties and fifties after the Tillamook 
burns.
    Although the science may not be complete, there is much we do know, 
and history can help instruct us as we face future catastrophic events 
and our attempts to apply our best knowledge to rebuild forests.
    To begin today's hearing, I'd like to show a ten minute video 
submitted by Communities for Healthy Forests, that I believe is 
indicative of the sentiments and hopes of local forest communities all 
over the country. Their message is not one of ``us verses them'', but 
rather one that is inclusive and pro-forests. I hope you find it as 
informative as I have.
                                 ______
                                 
    Mr. Walden. Mr. Kildee, would you like to give an opening 
statement since you are the Ranking Minority Member here?

STATEMENT OF THE HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman. Just briefly to thank 
you for having these hearings today and we look forward to 
hearing the witnesses. The more we learn about our forests, the 
better off we are able to serve, and here is the real Ranking 
Member.
    Mr. Walden. Jay, a statement?

STATEMENT OF THE HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Inslee. I just want to thank the Chair for exploring 
these issues, important issues, and I hope we can keep this 
effort up.
    Thank you.
    Mr. Walden. You are welcome. Thank you, gentlemen.
    As I said, other members' statements will be entered into 
the record.
    To begin today's hearing, I would like to show a 10-minute 
video submitted by the Communities for Forest Health, and I 
believe is indicative of the sentiments and hopes of local 
forest communities all over the country. Their message is not 
one of us versus them, but rather one that is inclusive and 
pro-forest. So I hope you find it as informative as I have. I 
thought it would be helpful. Let us go ahead and start that.
    Just for the record, we do have votes coming at about 
11:30. We will break and then come back, but we hope to get our 
first panel in before then.
    Go ahead.
    [Video played.]
    Mr. Walden. That obviously gives you one viewpoint which is 
held by many, including, I believe, the various counties in 
Southern Oregon who helped underwrite the cost of that.
    I would like to introduce our witness panel now. On Panel I 
we have Dr. Ann Bartuska, Deputy Chief for Research and 
Development, accompanied by Steve Eubanks, Forest Supervisor, 
the Tahoe National Forest, the Forest Services, USDA; and Ed 
Shepard, Assistant Director, Renewable Resources and Planning, 
Bureau of Land Management, U.S. Department of the Interior.
    Dr. Bartuska, welcome. We are delighted to have you and 
your panelists here.

   STATEMENT OF ANN BARTUSKA, DEPUTY CHIEF FOR RESEARCH AND 
  DEVELOPMENT, FOREST SERVICE; ACCOMPANIED BY STEVE EUBANKS, 
 FOREST SUPERVISOR, TAHOE NATIONAL FOREST, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Dr. Bartuska. Good morning, Mr. Chairman and members of the 
Subcommittee. It is an opportunity, and I appreciate the 
opportunity to be here and talk about our activities associated 
with restoration of forests after major events.
    And as you already mentioned in your opening remarks, 
clearly there are some really significant disturbance events 
out there, not only wildfire. Hurricanes, ice damage, insect 
and disease and invasive species, in all totality, affect 
millions of acres of our forests in the United States annually. 
When this occurs on national forests, we believe very strongly 
that we need to address those particular events by addressing 
the need for restoration, looking at both the ecological 
condition and the characteristics of the landscape, but also 
the economic and social factors associated with it, and time it 
to the land management objectives as determine by the forest 
plans. So in totality, we can take the same approach for all 
those disturbances, but I would like to really focus on what we 
do following wildfire and really emphasize that in today's 
remarks.
    When we approach restoration of forested ecosystems 
following a large-scale disturbance, we usually think of three 
stages, the first one being emergency stabilization, usually 
completed within the first year following the event. The second 
stage would be rehabilitation of key resources, especially when 
they are unlikely to recover without human intervention, when, 
for example, if you have had some major ecological disturbance. 
Then the third stage would be longer term forest restoration 
which includes reforestation and other treatments. In all three 
of those stages, research findings and tools developed by 
scientists provide important methods of evaluating both the 
need for the work to be done, as well as evaluating the 
effectiveness of the treatments, and we believe that continual 
link between science and management really helps us improve 
both the science and the management that we do.
    Immediately after a catastrophic event, we go through 
emergency stabilization treatments through the Burned Area 
Emergency Response Program, usually referred to as BAER. 
Through that process we have actually been very active in the 
years in really highlighting where the most important work 
needs to be done. Last year we treated approximately 78,000 
burned acres where there was a clear demand for immediate 
response.
    In using the BAER program, we require that treatment 
measures provide a essential and proven protection at minimum 
costs in order to qualify for funding and also treat the most 
important issues. For example, in many of our major severe 
fires where we have soil disturbance, we know that initial 
green-up may be with invasive species rather than the native 
species that we prefer. So our treatments would then be 
focusing on what kinds of things we can do to minimize the 
impact and establishment of those invasive species that is 
driven by severity of the fire, soil condition, and which 
species are present. In those situations information provided 
by our researchers help the managers to determine which are the 
most appropriate treatments to use.
    The second stage, rehabilitation, focuses on the lands 
unlikely to recover from fire through natural processes. The 
goal is to produce a functioning ecosystem that meets our 
management objectives. Again, these activities are carried out 
using the best available science so that we can maximize the 
benefits and minimize the negative impacts of treatments. 
Choices are made on the knowledge that we have from the science 
that is produced, as well as our past management experiences, 
again, an ongoing process.
    Then the third stage where we have longer-term restoration 
goals which we like to achieve through the application of 
prescriptions designed to achieve the long-term objectives of 
the land. In this situation there are two prescriptions that I 
would like to talk a little bit more about. One is the removal 
of trees affected by disturbance, and then those that are 
designed to facilitate reforestation. For tree removal 
following catastrophic disturbances, this may occur for both 
ecological and economic reasons. Our prescriptions are 
developed based on the science that we have and the conditions 
at the particular site. Some harvest prescriptions are designed 
to couple the objective of leaving large tree structures like 
snags, coarse woody debris, in place while removing the other 
dead and dying trees to expedite the establishment of a new 
forest.
    There also will be situations where removing dead and dying 
trees primarily is for economic and social benefits. We 
recognize that. We know that timber salvage operations can 
provide jobs in the woods and to the mills in nearly 
communities, and it is an important part of our analysis.
    We also know that the removal of dead trees must be done 
promptly if economic benefits are to be derived because 
deterioration does follow so quickly after death, and you will 
be hearing more about specific cases from Steve Eubanks 
shortly.
    The other tool for long-time restoration is reforestation. 
Immediately following a disturbance event a preliminary 
diagnosis is made to determine the areas that will require 
reforestation treatment to restore forest cover and a detailed 
prescription with a specific sequence of treatments is 
developed consistent with the land management objectives.
    The silvicultural prescription provides direction for how 
many trees must be reestablished, the proper mix of vegetation, 
and the target structure and composition for the reforested 
area. Again, these prescriptions have evolved over time as a 
continual discussion between our scientists and managers, and I 
think we have improved our understanding and our way to focus 
those prescriptions based on that knowledge.
    For the idea of using logging after fire, we have put in 
several studies to really evaluate what we know to date and 
where we are going in the future. In a study by two of our 
scientists, looking at 21 post-logging practices, the major 
conclusion was that the practice of salvage logging is 
controversial, and the debate is carried on, unfortunately 
without full benefit of scientific information.
    Because of that, we are enhancing our programs to ensure 
that we try to minimize and close those gaps, reduce the 
uncertainty associated with what those logging practices and 
post-fire restoration work does, but not to stop work entirely, 
but instead, to continually build our knowledge. As an example, 
we are very excited that the Biscuit Fire Recovery Project 
includes 10 research projects that will, over the long run, 
give us a really solid base for what you do following a major 
event like that.
    We have several other comprehensive studies looking at soil 
erosion and soil processes, building on both the Hayman Fire of 
2002 and the Cedar Fire in 2004, again, trying to make sure we 
learn from our practices.
    So as we increase the knowledge by the actions of 
scientists, we are also looking at the action of our manager, 
and I would like to turn it over to Steve to carry on and give 
you his experiences.
    Mr. Walden. We are going to go ahead and take your 
testimony. We can go another eight or 9 minutes here. Then we 
will break, take our votes, and come back.
    Mr. Eubanks. Actually, mine is going to be less than the 
eight or 9 minutes, so that is good.
    Mr. Chairman and members of the Subcommittee, I too 
appreciate the opportunity to be here today to share with you 
the results of two case studies that we completed on the Tahoe 
National Forest to look at post-fire restoration activities. We 
specifically looked at two fires that occurred in the year 
2001, the Gap Fire and the Red Star fire, and we wanted to take 
a look particularly at the issues that we faced in planning and 
implementing post-fire activities, and actually, particularly 
even more focused on the impacts of delaying the implementation 
of salvage and restoration activities.
    I think it is important to start with a little bit of 
background on the projects themselves and the areas, and 
particularly, the fact that both Gap and Red Star were located 
in Forest Land Management allocations that called for the 
perpetuation of large old forests, the typical conifer forests 
of the west side of the Sierras. Since most of the old forests 
in these areas that were burned, burned catastrophically, our 
focus was really on restoration, than of old forest conditions, 
and getting that old forest back in the soonest time that was 
practicable.
    I think it is also important to note that in the case of 
both the Red Star and the Gap Fires, we focused only on those 
areas that had at least 75 percent of the trees that had been 
killed by the fire. That was because of the constraints of the 
Land Management Plan allocation that we were working under at 
the time, the framework, which was an amendment to the forest 
plans in the Sierras. We have got some photos that show here 
what the forests typically look like where it was 
catastrophically burned and at least 75 percent of the trees 
were dead. Particularly, in the case of the Gap Fire we were 
dealing with 737 acres of area that we actually proposed for 
treatment, and 1,038 acres on the Red Star Fire.
    I think many of you are aware that post-fire restoration 
projects typically include in these days extensive 
environmental analysis and documentation, and that is intended 
to respond to what we anticipate as challenges through 
administrative appeals and formal litigation. In the case of 
the Gap Fire restoration, the environmental assessment was 
completed and a decision was signed by June of 2002, which was 
about 10 months after the fire began. The operations on that 
particular fire restoration started in October 2002 after the 
administrative appeal process was completed.
    The decision notice for Red Star Project was approved in 
November 2002, more than a year after that fire. After the 
appeals were completed, work actually began on the project in 
June of 2003. I think it is important to note that in contrast 
most of the area in the Gap and Red Star Fire areas that burned 
on private land were treated without comparable environmental 
analysis or public participation, and they were actually 
completed by November of 2001, which was only a couple months 
after the fires.
    One of the key issues--and I think you saw that in the 
video--that we must deal with is merchantability of dead trees. 
Normally in our area trees greater than 10 inches in size are 
commercial in value. By the time, however, that we actually 
started operations on the Gap Fire and the Red Star Fire, 
deterioration was very significant in those smaller trees, and 
their value was no longer high enough to pay for their removal. 
So deterioration also was less significant only in the very 
large trees, and therefore, rather than a 10-inch minimum size 
of trees that could be removed, we had to increase the size to 
18 inches. Then as a result of that, of course you would 
recognize that many fewer trees were removed when the projects 
were completed, and this in turn meant that there was less 
monetary return to the treasury from the timber sales, and in 
the case of Gap Fire, that equated to $1.3 million in lost 
revenue, and in the case of Red Star Fire it was $4 million of 
lost revenue.
    I think it is important to look beyond just the economic 
cost because there is an ecological cost that we also have to 
consider. The Red Star and Gap Fires are within a fire regime 
that experiences frequent fire return intervals, and by that I 
mean, in this case, we can expect that fires will return on an 
average of less than 30 to 35 years. So by delaying restoration 
in these areas, the trees that were killed by the fires may 
remain standing for a decade, maybe two, but they will 
eventually fall to the ground and create a significant dead 
fuel component, that with subsequent wildfire events could 
consume any small trees that become established within these 
areas.
    So in summary, based on our experiences, it is clear that 
through active management and some forest types, we can 
accelerate by many decades the development of large tree 
structure, and we can much better protect the replacement 
forest that becomes established. In contrast, by letting nature 
take its course for these projects, we run the risk of delaying 
or not achieving these objectives.
    With that, I would like to turn it back to Dr. Bartuska to 
summarize our testimony.
    Dr. Bartuska. Just a few last points. I think the main 
message for me on this is that we are learning as we are going, 
and we are also, I think, taking advantage of projects, 
bringing the best available science to the managers so that 
they have the tools they need, but also with the managers being 
able to inform the next set of scientific questions, reducing 
uncertainty in the long run. Maybe the bottom line right now is 
that one size doesn't fit all, that we want to keep learning 
from these, but also putting new practices into place.
    [The prepared statement of Dr. Bartuska follows:]

     Statement of Dr. Ann Bartuska, Deputy Chief for Research and 
  Development, Forest Service; and Steve Eubanks, Forest Supervisor, 
         Tahoe National Forest, U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to discuss with you the important topic of restoring 
forests after catastrophic events.
Background
    Catastrophic events such as wildfire, hurricanes, tornados and 
other wind events, ice storms, insect infections and disease, and 
invasive species impact millions of acres of forests annually across 
the United States and the rest of the world. When these events occur on 
National Forest System lands, the need for restoration is determined by 
ecosystem characteristics, by economic, social, and ecological values 
at risk, and by land management objectives as described in the 
applicable Forest Plan. Forests, in the long term, are adapted to 
recover from such events, although recovery may take tens to hundreds 
of years and sometimes result in modifications to forest type. 
Therefore, management objectives, which address all these 
considerations and reflect research findings, are the critical factors 
in determining the amount, type, and location of restoration 
treatments. Many disturbed areas should be, and are, left to recover 
naturally, but there are times when restoration or other management 
activities including the commercial removal of dead and dying trees is 
the appropriate and responsible thing to do.
    Because wildfire is a recurring and frequent force in North 
American forests, we will focus on restoration after fire. Wildfire is 
one of the most complex events that impact forests.
    Ecological impacts of fire vary with forest type, stand density, 
fuel loading, fire intensity, slope and soil characteristics, and 
weather conditions. Shrubs, stimulated to sprout or germinate after 
fire, may prevent establishment or suppress growth of forest 
regeneration on some dry and mid-elevation sites. Changes in species 
composition and structure after fires may make these areas more 
susceptible to future fire and may not meet long-term objectives for an 
area for wildlife, recreation and other resources. Severe fires may 
increase the susceptibility to invasion by exotic grasses and other 
undesirable plant species. Steep slopes and sites with water-repellant 
soils may lose surface soils to erosion, causing streams and reservoirs 
to become silted. This accelerated erosion, combined with the increased 
runoff typical of burned sites can cause channel erosion, loss of fish 
habitat, and downstream flooding or debris flows. In these situations 
management to restore or speed recovery would likely be appropriate.
Emergency Stabilization, Rehabilitation, and Restoration
    Restoring forested ecosystems following a large-scale disturbance 
typically involves three stages: emergency stabilization, usually 
completed in the year following the event to prevent threats to life, 
property, and further damage to watersheds; rehabilitation of key 
resources affected by the disturbance and unlikely to recover without 
human intervention; and longer-term forest restoration which includes 
reforestation and other treatments needed to restore functioning 
ecosystems; and that span many years. All of these stages are completed 
consistent with the direction contained in individual forest plans. 
Research and tools developed by scientists provide important methods of 
evaluating what needs to be done and the effectiveness of emergency 
stabilization, rehabilitation, and restoration.
    After a catastrophic event, our first priority is public health and 
safety. Our goal as land managers is to take the steps needed to 
stabilize and restore the resource to meet the desired condition of the 
resource using treatments that are based upon sound ecosystem 
restoration science. Emergency stabilization treatments are conducted 
through the Burned Area Emergency Response (BAER) program. Treatments 
vary based on values at risk and the probability of protecting those 
values. The nature of the treatment is based on severity of the fire, 
the slope, soils, ecotype, and post fire weather conditions. Because we 
fund emergency stabilization with emergency wildland fire funding, we 
require that treatment measures provide essential and proven protection 
at minimum cost in order to qualify for funding.
    Over the past three years, we have developed the capacity to use 
satellite imagery to assess burn severity on most large fires on 
National Forest System lands. Maps are derived and supplied to managers 
who must decide where to treat and how much area needs treatment. 
Forest Service and United States Geological Survey scientists have 
developed an integrated system called FIREMON for determining and 
implementing appropriate methods for quantifying and monitoring effects 
and severity of wildland fire.
    For example, the bare soils of a severely burned forest may be 
susceptible to invasive, non-native species which compete with native 
species, limiting growth and productivity of desired vegetation. 
Treatments would be designed to prevent the establishment of invasive 
species based on severity of the burn, soil condition, and anticipated 
invasive species.
    Our researchers are currently working with managers to improve a 
prototype computer tool that considers soils, vegetation, terrain, burn 
severity, and climate characteristics to estimate sedimentation that 
might be expected after fire, and how much erosion might be reduced by 
various treatments. Results are expressed in terms that allow managers 
to assess the uncertainty associated with future climatic events. This 
computer model summarizes a vast quantity of data into a form that 
managers can use to design effective treatment regimes.
    Information developed by researchers helps manager determine 
appropriate treatments. For example, the 2003 Myrtle Creek Fire heavily 
burned the municipal watershed for the City of Bonner's Ferry, Idaho. 
The steep slopes, granitic soils and typically heavy rain falls made 
erosion likely. To prevent heavy sedimentation of the City's water 
supply, the watershed was seeded with non-persistent grasses. In 
comparison, the Southern California fires burned the area surrounding 
the Silverwood Lake, a major distribution point for the Southern 
California water supply. Because of the Santa Ana winds and the 
seasonal distribution of rains, seeding likely would not have been 
effective in preventing sedimentation in Silverwood Lake. Instead, 
mulch was placed to slow the run off and reduce erosion. The differing 
treatments were equally effective in preventing sedimentation.
    Last year over 1.4 million acres of National Forest System land 
burned. Emergency stabilization treatments were carried out on 78,317 
burned acres. There were also 1,474 miles of road and trail 
stabilization and stream rehabilitation. We also completed 2,170 
projects that cannot be measured in acres or miles, such as culvert 
replacements, hazard warning signs and early warning systems to warn 
residents of impending floods.
    Rehabilitation focuses on the lands unlikely to recover from fire 
through natural processes. The goal is to produce a more intact 
ecosystem that meets management objectives for fire and disease 
resistance, tree type, regeneration, and fish and wildlife habitat in a 
manner appropriate to the site and the impacts of each particular fire. 
These activities are carried out using the best available science to 
maximize benefits and minimize negative impacts of treatments.
Tools for Long-Term Restoration
    On many acres, natural processes may foster recovery at a pace that 
is entirely sufficient to satisfy land management objectives without 
human intervention. We conduct vegetative treatments in those locations 
where this is not the case, and where we can help expedite the recovery 
process through carefully planned and conducted activities that may 
also recover value from these areas through various actions, including 
timber salvage operations.
    Longer-term restoration goals are achieved through the application 
of prescriptions designed to achieve long-term objectives for the land. 
I will focus on two types of prescriptions today: the removal of trees 
affected by the disturbance event and those designed to facilitate 
reforestation.
Restoration Tree Removal
    We remove trees following catastrophic disturbances for both 
ecological and economic reasons. Prescriptions are developed following 
catastrophic events to achieve specific land management objectives. For 
example, prescriptions to achieve wildlife habitat objectives have 
become increasingly commonplace on the national forests, particularly 
for late-seral dependent wildlife species. The retention of snags, 
coarse woody material, and other features are beneficial to these 
species and to the ecosystem as a whole. Other harvest prescriptions 
are designed to couple the objective of leaving large tree structures 
in place, while removing other dead and dying trees, to expedite the 
establishment of a new forest.
    There will be other situations where removing dead and dying trees 
is primarily for economic and social benefits. If we can get some of 
these trees out of the woods in a timely manner they still have 
commercial value. Timber salvage operations can provide jobs in the 
woods and in the mills of nearby communities. If these trees are 
processed before they deteriorate too much, forest products for the 
American economy can be the end result. Purchaser deposits generated 
from salvage sales may also be used to complete the renewable resource 
work needed to restore these project areas through reforestation 
treatments.
    The removal of dead trees must be done promptly if economic 
benefits are to be derived because deterioration begins immediately 
after death. Steve Eubanks will share his experiences connected to the 
cost of delayed implementation, shortly.
    In Fiscal Year 2003, salvage treatments were conducted on 49,000 
acres following fire, insect infestations, and disease or about 22 
percent of the total area where commercial harvesting was done on the 
national forests (224,000 acres).
Reforestation
    Immediately following a disturbance event, a preliminary diagnosis 
is made to determine the areas that will require reforestation 
treatment to restore forest cover. This diagnosis is generally made by 
a silviculturist. Within one year of the disturbance event, a detailed 
prescription with specific sequence of treatments is developed. These 
prescriptions provide direction to restore these lands to a forested 
condition consistent with the land management plan.
    We annually tabulate these treatment needs by national forest and 
include them in the Reforestation Needs report submitted to Congress as 
required in the Forest and Rangeland Renewable Resources Planning Act 
of 1974. Our most recent report compiled as of the end of Fiscal Year 
2003 identifies reforestation needs of approximately 899,000 acres 
service-wide. Approximately two-thirds of these needs have arisen from 
wildfires.
    Reforestation treatments may or may not involve tree planting. 
Natural regeneration may be entirely sufficient to achieve resource 
objectives. For example, in Fiscal Year 2003, reforestation treatments 
were completed on about 160,000 acres. Of this total, the Forest 
Service planted about 76,000 acres and seeded about 5,000 acres. The 
remaining 79,000 acres regenerated naturally. Each of these practices 
is carried out in a manner that will restore native tree species to the 
treatment area.
    The silvicultural prescription provides direction for how many 
young trees must be reestablished, the proper mix of vegetation, and 
the target structure and composition for the reforested area. The 
desired future condition may be a structurally complex conifer 
dominated forest to provide habitat for the Northern Spotted Owl on a 
national forest in the Pacific Northwest, the development of cover in 
key winter range for black-tailed deer or myriad other possible 
combinations representing the spectrum of resource benefits embodied by 
our national forests.
    One of the most useful collaborative products emerging from Forest 
Service research and our National Forests Systems applications group 
has been the Forest Vegetation Simulator and the Fire and Fuels 
Extension to this tool. This model enables resource managers to 
visualize and project through time the development of reforested areas 
following wildfires and treatments.
Science and Restoration
    In their paper titled ``Environmental Effects of Post-Fire Logging: 
Literature Review and Annotated Bibliography'', Forest Service research 
scientists, McIver and Starr reviewed the existing body of scientific 
literature on logging following wildfire. Twenty-one post-fire logging 
studies were reviewed and interpreted. McIver and Starr concluded that 
while the practice of salvage logging after fires is controversial the 
debate is carried on without the benefit of much scientific 
information. They also concluded that the immediate environmental 
effects of post fire logging is extremely variable and dependent on a 
wide variety of factors such as the severity of the burn, slope, soil 
texture and composition, the presence or building of roads, types of 
logging methods, and post-fire weather conditions.
    We realize that there are gaps in what we know about post-fire 
restoration and we are working hard to fill those gaps. Forest Service 
researchers, in collaboration with other scientists, are working to 
increase our knowledge of how ecosystems respond to fires and how 
management actions can affect desired outcomes. For example, there are 
as many as ten different research studies within the Biscuit Fire 
Recovery Project.
    Our research program is focused on improving our ability to 
understand and implement restoration and rehabilitation actions. For 
example, research has studied the interactions of undesired, invasive 
species and fire, use of native plant materials in rehabilitation and 
restoration, and watershed responses in terms of nutrients and sediment 
loading.
    We have established comprehensive studies to examine the 
variability of watershed response and treatment effectiveness. For 
example, we have established a network in six western states to examine 
variability of post-fire erosion and effectiveness of emergency 
rehabilitation treatments such as contour felled logs, mulches and 
straw wattles. Included are watersheds in the 2002 Hayman Fire in 
Colorado and the 2004 Cedar Fire in southern California.
    Several research publications related to rehabilitation and 
restoration are available to all and are in general use. A series of 
recent publications synthesizes the science related to fire effects on 
flora, fauna, and air. These documents are useful in understanding how 
fire affects ecosystems including important post-fire plant 
regeneration information. The computerized Fire Effects Information 
System, available online, contains species and vegetation community 
specific summaries of what is known regarding fire effects and 
interactions.
    In April 2003, the General Accounting Office recommended that the 
Forest Service and the Department of the Interior specify methods to 
monitor the effectiveness of emergency stabilization and rehabilitation 
treatments after wildfires and develop a system to disseminate 
monitoring results. The Wildland Fire Leadership Council chartered the 
National Burned Area Emergency Response Coordinators Group and assigned 
the group to take action on the GAO recommendations. The group has 
identified the major treatments and is establishing teams to identify 
protocols for monitoring these treatments. An additional team is being 
established to develop methods to disseminate the monitoring results 
for use in management decisions.
Tahoe Experience
    During the fire season of 2001, several major fires occurred on the 
Tahoe National Forest including the Gap and Red Star Fires. I want to 
share with the committee my experience with some of the issues faced in 
planning and implementing restoration projects after these fires, 
particularly impacts of delaying the implementation of salvage and 
restoration activities.
    First, let me provide some perspectives on what it is that we are 
trying to achieve as we restore forest resources to the areas impacted 
by the Gap and Red Star fires. In terms of our management direction, 
most of the fire area was in a Land Management Plan allocation (Sierra 
Nevada Forest Plan Amendment) that emphasizes perpetuation of mixed 
conifer forest conditions in support of late-seral dependent species. 
Our management actions would thus be directed at re-establishing these 
structural and compositional elements on the landscape at the soonest 
practicable time.
    The focus of Gap and Red Star Fires'proposed restoration work was 
only on high intensity fire areas where mortality exceeded 75% (due to 
provisions of the Sierra Nevada Forest Plan Amendment). The area 
planned for treatment was 737 acres on the Gap Fire and 1038 acres on 
the Red Star Fire.
    Post-fire restoration projects typically include extensive 
environmental analysis and documentation intended to respond to the 
anticipated challenges of administrative appeals and formal litigation. 
The Gap Fire Restoration Environmental Assessment for the areas on the 
Tahoe NF was completed and a decision signed by June 2002, ten months 
after the fire, and operations began in October 2002 after the 
administrative appeal process was completed. The Red Star Restoration 
Project's Record of Decision was approved in November 2002, more than 
one year after the fire. After appeals were completed, work began in 
the non-roadless portion of the project in June of 2003. Most of the 
areas burned on private land were treated without comparable 
environmental analysis or public participation, by the end of November 
2001.
    Normally, trees 10 inches in size and larger may have commercial 
value. By the time operations actually began in the Gap Fire and Red 
Star Fire restoration work, deterioration was significant within 
smaller trees, and their value was no longer high enough to pay for 
their removal. Deterioration was less significant only on larger trees. 
Therefore, the minimum size of trees removed had to be increased to 
approximately 18 inches. As a result, many fewer trees were removed 
when the project was conducted. This in turn meant there was less 
monetary return to the Treasury from the timber sales: reductions in 
the returns to the taxpayer were over $1.3 million for the Gap Fire 
area and nearly $4 million for the Red Star Fire area.
    Beyond the economic costs I have outlined, there is an ecological 
cost that we must also weigh. The Red Star and Gap Fire areas occur 
within a fire regime that experiences a frequent fire return interval 
(30-35 years). By delaying treating in these areas, the trees that were 
killed by the fire may remain standing for a decade or perhaps two, but 
they will eventually fall to the ground and create a very significant 
dead fuel component that, with subsequent wildfire events, could 
consume the young stand that becomes established within these areas.
    Through active management in some forest types, we can accelerate 
by many decades the development of large tree structure and we can 
better protect the replacement forest. By letting nature take its 
course for these projects, we run the risk of delaying or not achieving 
these objectives.
Summary
    Mr. Chairman, post-catastrophic forest restoration is a complex 
process which begins almost immediately following a destructive event. 
Forest Service research works with managers to develop tools and 
information that these managers need to do their jobs better. Forest 
Service managers strive to use the best science available in their 
decision making. We realize there are questions still to be answered 
about the effects of our restoration activities, and we are working to 
find these answers. We also know that we would not be responsible 
stewards if we waited to satisfy all uncertainties before proceeding 
with our work.
    We appreciate your willingness to listen to us today and look 
forward to your support for active forest management based on the best 
available science. This concludes our testimony. We will be glad to 
answer your questions.
                                 ______
                                 
    Mr. Walden. Thank you very much. I appreciate your 
testimony.
    I think what we will do is, rather than run out of time as 
you give your testimony, Mr. Shepard, we will go ahead and 
recess the Committee now. I think we have three votes, I 
believe, so probably be back in, I am going to guess, 30 
minutes. We will try and reconvene then at 12:00 at the latest, 
and we will go from there. So meanwhile we will stand in 
recess.
    [Recess.]
    Mr. Walden. We will call the Subcommittee on Forests and 
Forest Health back to order. When we left off last we had heard 
from Dr. Ann Bartuska, Deputy Chief of Research and 
Development, and Mr. Steve Eubanks, and we were teed up to hear 
from Ed Shepard, the Assistant Director, Renewable Resources 
and Planning from the Bureau of Land Management, Department of 
Interior. Thanks for your patience as we went over and voted.
    We welcome you, and please go forth.

    STATEMENT OF ED SHEPARD, ASSISTANT DIRECTOR, RENEWABLE 
    RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Shepard. Good morning, Mr. Chairman, and good morning, 
Congressmen.
    The BLM manages 201 million acres of public lands, 
including 55 million acres of forest and woodlands. 
Approximately 2.4 million acres of these forest lands are in 
the O&C lands in Western Oregon, and intended to be managed 
primarily for timber production.
    When events such as fire or blowdown occur, our goal as 
land managers is to stabilize and restore the resource. 
Restoration actions undertaken soon after the event are most 
likely to be successful, and conversely, delays in implementing 
treatments may jeopardize the successful restoration of the 
forest resources to its intended state.
    Immediately after a fire, our focus is to stabilize the 
soil, reseed the area, and prevent non-native and noxious 
plants from becoming established. In some areas where severe 
burns have occurred and on some lands that have burned with 
moderate severity repeatedly, natural processes may satisfy 
Land Management objectives, but in other areas, we know that 
without management intervention forests will not return for 
many decades and resource objectives will not be met.
    Potential restoration treatments are considered on a site-
specific basis, and may include grass seeding to reduce 
erosion, reforestation to hasten forest establishment, stream 
enhancement to repair damages stream banks, and timber salvage 
to reduce future fuel loads, provide for public safety and 
recover the economic value of the resource.
    Salvage is the process of preparing and offering a timber 
sale contract to remove dead or dying trees before the economic 
value is lost, optimally, within the first year after a fire. 
The Federal share of receipts from timber sold under this 
authority is paid into a permanent operating fund, and those 
receipts are used for further restoration work.
    Since Fiscal Year 2000, over $21 million in receipts from 
the salvage of timber has gone into this fund and have funded 
other forest health treatments.
    In considering alternative ways to address the restoration 
of a forest, the BLM follows environmental laws including NEPA. 
If, for example, a fire was relatively small or did not 
threaten a watershed and other resources, the BLM may do an 
environmental assessment. In such cases we are able to 
implement restoration within a few months after the event.
    Up to a few years ago, preparing an EA was sufficient for 
most of our restoration work, and we were able to proceed 
rapidly. However, in other cases, restoration becomes more 
complex. It is not as simple as salvaging the timber and 
reforesting the damaged area. Management intervention may be 
needed for restoration of severely damaged watershed, wildlife 
habitats and other resources. So before implementing 
restoration actions that may have significant environmental 
effects, the BLM will do an environmental impact statement, and 
this can take a considerable amount of time, usually about 2 
years, to complete an EIS.
    However, we know that significant delays before undertaking 
restoration action can substantially reduce the success of 
restoration, increase our costs considerably, and reduce 
recoverable economic value by as much as 40 percent in larger 
diameter trees and 100 percent in small diameter trees. In 
fact, excessive delays can prevent us from taking any action at 
all.
    A few examples of BLM's restoration actions are shown in 
the Oxbow Fire from 1966 and the Bland Mountain Fire more 
recently in 1987. The Oxbow Fire began on August 20th, 1966 and 
burned approximately 42,000 acres, including 27,000 acres in 
the Oregon BLM's Roseburg, Coos Bay and Eugene Districts. 
Immediately after the fire salvage of merchantable timber was 
started to protect against insects infestation, reburn 
possibilities and to recover the material. 510 million board 
feet of timber was recovered.
    After 40 years of forest management treatments, the stands 
in the Oxbow Fire are now healthy and robust. Competition 
related mortality is occurring which is creating small diameter 
snags and down-woody material. These stands provide both 
ecosystem value and future timber production.
    I have some slides of the area. This is right after the 
fire. You can still see smoke in the picture from 1966. From 
that photo point--go to the next slide--this was the salvage 
operation that was kind of the practice at that time. If this 
were to occur now, there would be more snags left. You can see 
snags on the ridge top. We would distribute them more 
throughout the area and we would leave more material down in 
the draws in the bottoms and the riparian.
    Next slide. In 1983, from the same photo point, this is 
what the area looked like after several years of intensive 
forest management. The final slide, this was in 1985, this was 
that same area a little closer in. The area has been pretty 
commercially thinned, and they are fertilizing it right there 
with nitrogen fertilizer. It is anticipated that while this 
area is now ready, it is commercially available for commercial 
thinning, and we are looking at producing over 1-1/2 billion 
board feet of timber in the future, and it is also providing 
habitat for many of the species out there.
    The Bland Mountain Fire began on July 15th, 1987 near 
Canyonville in Southwest Oregon, and that fire burned 
approximately 10,000 acres. Tragically, two local forest 
workers lost their lives in this fire, and there was 
significant property to residents, outbuildings and logging 
equipment.
    Restoration in this area included planting trees, grass 
seeding on stream side areas, seeding and mulching of more than 
27 miles of road and fire trails, and the salvage of 55 million 
board feet of timber.
    Reforestation in that area overall has been very 
successful, and the stands reforested after the fire are 
currently 15 to 30 feet tall and are being thinned pre-
commercially for future timber management opportunities and for 
wildlife habitat development.
    In contrast within this fire area, there were small areas 
that were not restored, and those areas are now dominated by 
low shrubs rather than trees, and these areas are now being 
retreated at significantly higher costs.
    Fire is not the only event that causes us problems. Wind 
and water also cause catastrophic damages, and in the winter of 
95-96 a series of storms with heavy snows, followed by rain on 
snow events, and high winds occurred in BLM South River 
Resource Area in Southwestern Oregon. Many of the trees were 
blown down and broken off at 10 to 50 feet above the ground. 
Although this was an area where we had to do no immediate 
stabilization work, we did go in and do a lot of restoration 
work in there, including the salvage of 8 million board feet, 
treatment of slash from the downed material to prevent insects 
and fire danger, and planting new trees. Some of the areas we 
just went in there and thinned the area out and allowed the 
area to reforest itself because there wasn't that much damage.
    Mr. Chairman, before I end my statement, I would like to 
thank you for your leadership in the Healthy Forests 
Restoration Act. This new law allows the BLM to use expedited 
administrative processes to get hazardous fuels reduction 
projects started, and we all know we would rather treat the 
forests earlier than wait until we have to come in after a 
fire.
    Earlier this year, we issued guidance to our field offices 
on implementing the law, and we believe the additional tools 
this law provides will greatly help our efforts to reduce the 
risk of severe wildfire, and restore forests and rangeland 
health.
    In conclusion, the BLM believes that all restoration tools, 
including salvage logging, should be available to us. To be 
successful, restoration tools must be used in a timely, cost 
effective and efficient manner. The BLM has been challenged 
over the past several years to find an approach to rapidly 
address restoration issues without being held up in lengthy 
litigation into other issues.
    I thank you and I would be glad to answer any questions.
    [The prepared statement of Mr. Shepard follows:]

 Statement of Ed Shepard, Assistant Director, Renewable Resources and 
  Planning, Bureau of Land Management, U.S. Department of the Interior

    Thank you for the opportunity to participate in today's hearing on 
``Restoring Forests after Catastrophic Events.'' Although rangelands 
comprise much of the land administered by the Bureau of Land Management 
(BLM), we also manage substantial forest resources on the public lands. 
The BLM manages 55 million acres of forests and woodlands, 2.35 million 
of which are O&C lands in western Oregon. The O&C lands are managed 
primarily for timber production under the Revested Oregon and 
California Railroad and Reconveyed Coos Bay Wagon Road Grant Lands Act 
of 1937.
    Over the years, some of these forests have suffered catastrophic 
events, usually fire, occasionally blowdown, often exacerbated by 
outbreaks of disease or insect infestation. In the aftermath of such 
events, our first priority is public health and safety. Our goal as 
land managers is to take the steps needed to stabilize and restore the 
resource. Those steps need to reflect the desired condition of the 
resource, as well as the science about ecosystem restoration. Our 
experience with post-fire resource rehabilitation indicates that in 
some cases an ecosystem that has experienced a catastrophic event will 
readily meet a desired condition of the resource when restoration 
actions are undertaken soon after the event. Conversely, delays in 
implementing treatments after a catastrophic event--whether due to 
litigation, weather, or other factors--may jeopardize successful 
restoration of the forest resource to its intended state.
    Based on our experience with forest rehabilitation after several 
major wildfires, and drawing upon the best available science, the BLM 
has developed a multi-step approach to restoring the forest resource 
after a catastrophic event.
    Immediately after a fire or catastrophic event, the BLM's focus is 
two-fold: 1) to stabilize the soil, re-seed the area, and prevent non-
native and noxious plants from becoming established; and 2) to address 
short-term impacts to local communities, such as threats to public 
health and safety from fire-damaged hillsides and watersheds. Next, the 
BLM examines whether longer-term management interventions may be 
necessary to restore the forest and other resources (wildlife, for 
example). In some areas where severe burns have occurred, and on some 
lands that have burned with moderate severity repeatedly, natural 
processes may satisfy land management objectives without additional 
agency action. In other areas, we know that without management 
intervention, forests may not return for many decades. Indeed, some of 
these forests may remain as brush fields, and in some areas soils can 
be severely degraded.
    When deciding which management interventions to consider, the BLM 
looks at several factors: the Resource Management Plan (RMP) 
objectives; the scope, intensity and severity of the event; the 
possibility of further on-site or off-site damage; the potential 
economic value of the resource; the timeframe desired to meet resource 
objectives; and the possibility of success and the cost of failure.
    Restoration and potential treatments are considered on a site-
specific basis. BLM considers several types of treatments, including: 
seedings to reduce erosion; reforestation to hasten forest 
establishment; timber salvage to reduce future fuel loads, recover the 
economic value of the resource, provide for the safety of forest 
workers, and prepare the site for future resource conditions to meet 
RMP objectives; stream enhancements to repair damaged streambanks; and 
erosion and runoff control structures. The tool or tools that are 
selected must be tailored to the site and to the intended objectives.
    The removal of dead and dying trees, sometimes referred to as 
salvage, is among the various management tools the BLM may consider in 
restoring the forest resource after a catastrophic event. Salvage is 
the process of preparing and offering a timber sale contract to remove 
dead or dying trees before the economic value is lost, optimally within 
the first year after a fire. The Federal share of receipts from timber 
sold under this authority is paid into a permanent operating fund to be 
utilized for further restoration work. Since FY 2000, over $21 million 
in receipts from salvage timber sales and other forest health 
treatments have been deposited into this fund and used for additional 
restoration work and for the planning and preparation of additional 
salvage sales.
    If salvage is an option, the agency must consider how much timber 
to remove and how much to leave for wildlife habitat, nutrient cycling, 
and other ecological functions. Again, this is a site-specific 
determination. If too much material is removed, site productivity can 
be affected. If too much material is left, there is a risk of insect 
and disease attack as well as potentially heavy fuel loading that may 
drive future wildfires.
    Depending on the size of the fire and the complexity of issues 
involved, the BLM may prepare an environmental assessment (EA) or an 
environmental impact statement (EIS) to consider alternative ways to 
address the restoration of a forest. This process also gives the agency 
and the public a chance to evaluate the possibility for economic 
recovery of the trees killed in a fire or other catastrophic event.
    Beyond the immediate stabilization of a fire area, the BLM is 
required to follow all environmental laws when preparing restoration 
projects, including the National Environmental Policy Act (NEPA), and 
the Endangered Species Act (ESA). In the past, BLM relied on 
documentation included as part of our land use planning process to 
cover the majority of our restoration actions, and we were able to 
include these documents by reference with an EA. In such cases we were 
able to implement restoration within a few months after an event.
    More recently, however, on the advice of agency counsel and in 
light of certain trends in court decisions, we are preparing EISs 
before implementing those restoration actions that may have significant 
environmental effects, which can take considerable time to prepare. 
Significant delays before undertaking restoration actions can 
substantially reduce the success of restoration, increase costs 
considerably, and reduce recoverable economic value by as much as 40 
percent in larger trees to 100 percent in smaller diameter trees. 
Excessive delays can prevent us from taking any action at all.
    The following are two examples of forest restoration actions 
following catastrophic events: the Oxbow fire (1966) and the Bland fire 
(1987).
    Oxbow Fire: The Oxbow Fire began on August 20, 1966, and burned 
approximately 42,274 acres, including 24,359 acres managed by the BLM, 
17,601 acres owned by the International Paper Company, and 915 acres of 
other private land.
    Within a short time after the fire, salvage of all merchantable 
timber began to protect against insect and reburn possibilities. 
Salvage logging in the Coos Bay, Roseburg, and Eugene BLM Districts 
resulted in 82 timber sales contracts, representing 510 million board 
feet, purchased by 20 separate timber companies.
    In the 40 years since the Oxbow fire, the vegetation pattern of the 
area has changed considerably. The current vegetation pattern reflects 
years of forest management treatments following the Oxbow Fire. At 
present the stands in the Oxbow Fire are healthy and robust. Most of 
the stands are classified as Pole-young: that is, pole--5 to 11 inches 
in diameter at breast height, and young--11 to 21 inches in diameter at 
breast height.
    Within the stands, competition-related mortality (suppression) is 
occurring, creating small diameter snag and down-woody (suitable for 
nesting) material. Most of the stands are ready for commercial 
thinning, or will be ready for commercial thinning within the next ten 
years. These stands currently provide both ecosystem values and future 
timber production value. Estimated commercial volumes will be 1.5 
billion board feet in thinning and regeneration harvest over a ten year 
period. Without years of forest management treatments these stand would 
be decades behind their present condition.
    Bland Mountain Fire: Near Canyonville in southwest Oregon, the 
Bland Mountain Fire began on July 15, 1987. Approximately 10,000 acres 
burned, including 4,000 acres of BLM-administered land and 6,000 acres 
on private lands. Tragically, two individuals lost their lives in this 
fire. Property destruction included eleven residences, 18 vehicles, 
twenty outbuildings, the loss of two log yarders, one log loader, and 
one dozer.
    Restoration activities on the BLM-managed lands included: tree 
planting on all burned BLM acreage; grass seeding on 790 acres of 
stream side areas; creation of 140 waterbars; creation of one 8,000 
cubic yard capacity sediment pond; seeding and mulching of 27.3 miles 
of roads and fire trails; creation of 320 temporary sediment catch 
basins and check dams; and 55 million board feet of timber salvage.
    Reforestation has been successful overall on both BLM and private 
lands. Trees planted post-fire are currently between 15 to 30 feet 
tall. Stands reforested after the fire are currently being thinned for 
future timber management opportunities and wildlife habitat 
development.
    In contrast to areas with active restoration management, small 
areas which were not restored are in distinctly different condition. 
These are dominated by low shrubs, rather than trees. These small areas 
are actively being restored. However, the delay in active restoration 
has resulted in a delay of future timber harvest opportunities of 
approximately 20 years.
    While fire is the most common cause of damage to forests on lands 
managed by the BLM, wind and water may also cause catastrophic damage 
requiring restoration measures. In the winter of 1995-1996, for 
example, a series of storms--heavy snows, followed by rain-on-snow 
events and high winds--occurred in the BLM's South River Resource Area 
in southwestern Oregon. Most of the trees on 500 acres of BLM-managed 
forests (at elevations of between 3,500 to 4,000 feet above sea level) 
were blown down or broken off at 10 to 50 feet above the ground. Unlike 
in a fire, no emergency stabilization measures were needed. In the 
spring of 1996, the BLM initiated an EA on management actions to 
salvage the broken and blown down trees, and undertook various 
restoration actions. Under the Standards and Guidelines of the 
Northwest Forest Plan, nearly 8 million board feet of timber were 
salvaged. On some sites, the BLM burned the remaining slash [debris] 
and planted new trees. At other locations, the BLM removed relatively 
few trees--similar to a thinning--and allowed the area to reforest 
itself.
    The Healthy Forests Restoration Act (HFRA) [P.L. 108-148], signed 
into law on December 3, 2003, gives Federal agencies additional tools 
to reduce the risk of severe wildland fire and to restore forest and 
rangeland health. HFRA recognizes that delays in critical fuels 
treatment and forest and rangeland restoration projects place rural 
communities, as well as ecological values, at risk of damage or 
destruction by wildfire. The new law authorizes federal agencies to use 
expedited administrative processes on hazardous fuels reduction 
projects. We thank the Congress for passing this important legislation.
    The BLM believes that all restoration tools, including salvage 
logging, should be available for use by our resource managers. To be 
successful, restoration tools must be employed to meet land and 
resource management objectives in a timely, cost-effective, and 
efficient manner. The BLM has been challenged over the past several 
years to find an approach to rapidly address restoration issues without 
being held up in lengthy litigation.
    Thank you again for the opportunity to testify. I would be glad to 
answer any questions.
                                 ______
                                 
    Mr. Walden. Thank you, and thanks to the other panelists 
for your testimony on this first panel, and I appreciate your 
comments on the Healthy Forest Restoration Act. It was, as you 
know, a bipartisan measure that achieved I think unanimous vote 
in the Senate and overwhelming vote in the House and is being, 
hopefully, implemented aggressively across the country so we 
will have healthier forests, safer communities and protect 
habitat and watersheds.
    It is my hope that we could find out of the information we 
gather here from all sides and across the country in field 
hearings I hope to hold soon, the kind of data we need to 
figure out if there is a way we can expedite the process in a 
post-catastrophic event so that we can protect the 
environment--I don't want to do any degradation there--but so 
we don't lose the value of these trees while they still have 
value, and moreover, so we can get in and do the reforestation, 
prevent the invasive species and noxious weeds from taking over 
while we wait to act. It just strikes me if we are going to be 
true good stewards and true to the sort of philosophy that 
Theodore Roosevelt and others put forward in the beginning 
about protecting these forests, we need to put a better 
strategy for moving quicker while still fully involving the 
public, including rights of appeal.
    I appreciate, Dr. Bartuska, your statement that in the 
presence of some uncertainty action is still often warranted. 
But I question that there's a huge gap of information and 
science in some forest types and regions. For example, I 
wondered if you have seen this book, ``Reforestation Practices 
in Southwestern Oregon and Northern California?'' If so, do you 
find that useful, and those in your agency?
    Dr. Bartuska. I have not personally seen that particular 
reference, but my suspicion is that many of the authors are 
people we have been working with over time.
    Mr. Walden. I want to go to Mr. Eubanks. What did the 
Forest Service learn about the forest restoration efforts after 
the 1960 Volcano Fire? I understand you may have some slides 
you can share with us.
    Mr. Eubanks. Yes, I have actually I think three photos, and 
maybe we could take a look at those. Basically the fire was a 
very large fire in 1960, had extensive--
    Mr. Walden. Where was it?
    Mr. Eubanks. It was in the area around Forest Hill in 
California. It is the west slopes of the Sierra Nevadas, the 
lower west slopes, not too far out of the town of Auburn and 
about an hour out of Sacramento.
    It had an extensive amount of high-intensity fire, and 
similar to the photos that the gentleman from the BLM showed, 
in those days we did fairly extensive salvage logging, and 
probably by today's standards not real gentle on the sites and 
on the forests in terms of our approaches. But we did extensive 
salvage logging and restoration on national forest lands.
    This first photo shows the difference between national 
forest that was in fact treated; it was salvaged, planted and 
thinned over time, and--
    Mr. Walden. What are those three--
    Mr. Eubanks. That is on the left-hand side.
    Mr. Walden. Are those pine trees or--
    Mr. Eubanks. Those are primarily pine trees, yes, but it is 
somewhat mixed conifer. There are other species there as well. 
What was planted was primarily Ponderosa pine. On the right-
hand side of the photo is unrestored private land, and I think 
you can see the contrast in that particular photo, and I would 
like to move on to the next one.
    This basically is a ground level photo today of the brush 
that is growing on private land where no restoration activities 
occurred. Then I would move on to what the forest looks like 
today.
    Again, this is a photo just recently, within the last few 
weeks, of the area that was restored, and I think the 
difference is that regardless of whether we would do that 
intensive a management today, the fact is that there is a 
reasonably healthy forest growing there today, and it provides 
the values of a forest, and over time that will move to an old 
forest situation. Our management focus would be getting back to 
a more open large forest situation that provides good wildlife 
habitat, protection for soils and water.
    This particular area is now being actively thinned to 
provide better fuels treatment over time. The trees are large 
enough that they actually have economic value after about 44 
years.
    Mr. Walden. There doesn't seem to be too much doubt about 
the outcome when forests are not reforested quickly. I mean we 
have seen this on the Mt. St. Helens example. We see it in this 
example, in the Volcano Fire. I wonder, are those brush fields, 
I assume, pretty big fire hazards compared to the forest?
    Mr. Eubanks. Certainly the issue would be that if a fire 
went through those brush fields, it would be very difficult to 
maintain any kind of control. Those are the kinds of situations 
where if you have any kind of fire danger like this time of 
year, you kind of back off to some kind of a control area and 
hope that you can stop it.
    Mr. Walden. One of the things I would like to get answered 
is, what does the science show where landowners, whether they 
be private or public, go in and move quickly after a 
catastrophic event versus where they don't, with regard to soil 
erosion, effect on streams and habitat. I think that is the 
underlying issue. None of us wants to do anything that is going 
to worsen the situation for fish or fowl or the land. Does 
moving rapidly, is there science that shows by doing what you 
did here, it is worse than what was not done on private land 
and vice versa? Can anybody address that?
    Dr. Bartuska. During my testimony I mentioned work that had 
been done by two of our scientists that tried to get a handle 
on--of the 21 studies that had been done to that point, what 
were we able to learn? I think what we are finding is in some 
cases success is apparent, and you certainly have an ability to 
respond to soil erosion, minimize soil erosion, minimize 
sediment loading, maintain the healthy water quality and 
quantity, and get a good recovery. But that one case study put 
on another piece of the landscape doesn't necessarily end on 
the same point. I think what we are trying to do is fill in 
those gaps so that we have a better understanding for different 
forest types, for different types of soils and different 
conditions, that we increase our likelihood of success.
    Mr. Walden. Is it possible, once you complete those studies 
or if there are others out there, to create some sort of 
template that could be applied to similar sorts of areas around 
the country when there is a similar sort of catastrophic event? 
In other words, western forests of Southern Oregon and eastern 
forests of Eastern Oregon, can you look at a Ponderosa pine 
forest with certain types of hillsides and say, OK, here is 
what science shows happens in areas like this, so here is where 
we should be able to come up with a recovery plan?
    Dr. Bartuska. To me the ideal thing is exactly what you are 
talking about, would be a decision support tool for managers 
that would lay out, given certain characteristics, here are the 
treatments that one could do, and here are the outcomes that 
one would expect to achieve over a certain period of time. I 
think we have done that successfully in other areas. So the 
more we have studies like this, after the Biscuit Fire, after 
Hayman, and others that fortunately have not burned and we are 
still able to study, putting that all together gives us a much 
better understanding of management, and it is the same--it is 
making sure that we have a good understanding of what sites and 
what forest types and what the soils are doing, and use all of 
that to figure into our decision process.
    Mr. Walden. I have overrun my time, unfortunately. Did you 
want to make a comment, Mr. Shepard? No, OK.
    Mr. Inslee?
    Mr. Inslee. I would yield as much as the Chairman wants to 
consume, keep going. If you would want to just keep going, I 
bet you Mr. Renzi would agree too.
    Mr. Walden. I do have a couple other questions.
    Mr. Inslee. Mr. Renzi, should we defer to the Chair?
    Mr. Renzi. Certainly.
    Mr. Walden. I like this chairmanship thing. It is pretty 
good. I have a gavel and all the time I want.
    [Laughter.]
    Mr. Walden. Thank you.
    I guess what I am trying to get to, it seems to me that in 
some of these private landowner situations they are able to 
move quicker. In some they don't, which is of course the case. 
What I want to know--and maybe you can't answer this--but what 
I want to know is what is the outcome in 2 months, 6 months, 6 
years? I mean is there a short-term degradation but a long-term 
benefit by moving quickly? How do we analyze that, and how 
much--it just strikes me as amazing that every other landowner 
type, whether it is State, city, county, private, seems to be 
able to move quicker than the Federal Government. The question 
is, by moving quickly, do they cause environmental degradation 
or are they able to move in a way that is beneficial to the 
environment, but it is just the sort of regulatory scheme you 
all have to work under in the Federal Government?
    Mr. Shepard, do you want to touch that one?
    Mr. Shepard. The regulatory scheme that we work in under 
the Federal Government does slow us down. The foresters from 
the private land, they know what to do and how to do it. The 
science is there to support them. Our resource specialists know 
what to do and how to do it, but we do have to go through that 
regulatory process. There are questions raised. There is 
differences in the science from both sides, and we have to try 
to rectify that the best we can, but the quicker we can move 
into action on the ground, the quicker that we can get the 
forests back to our desired conditions that are the objectives 
that we put out in our land use plans, where industry, the 
timber industry or another private landowner, their objectives 
may be timber. It is to their advantage to get that timber, the 
reforestation done as quickly as possible. And depending if our 
objectives are maybe an early stage for big game or something 
like that, we may not take rapid action. But if our objective 
is timber or trying to replace an old forest quickly, the 
quicker we can get in there, the better we will be.
    Mr. Walden. It strikes me now in the Biscuit Fire, having 
lost 80,000 or 90,000 acres of spotted owl habitat in late 
successional reserve, that the goal has been to protect the old 
growth because that is the spotted owl's habitat. It would seem 
to me therefore our responsibility to try and recreate that 
habitat as rapidly as possible. And some of the studies--and I 
know, again, everybody's got a little different science on 
this, but some studies indicate moving quickly can regenerate 
that forest in 50 to 100 years faster than delaying by even a 
few years.
    Do you find that? I mean is that what your science shows in 
general?
    Mr. Shepard. I think you will hear from Dr. Sessions who 
synthesized a lot of the science there and that supports that 
book that you held up, was the product of Forestry Intensified 
Research Program, the FIR Program, in Southwest Oregon, and I 
think a lot of what that showed is whether--you know you're 
trying to restore an area after a fire or reforest it after 
timber harvest, the quicker you can get in there, the quicker 
you're going to get conifers established because the brush 
species, particularly in Southwest Oregon and areas like that 
are--have a competitive advantage early on right after 
disturbance. So if you can get in there before they get 
themselves established, you may have a much better chance of 
success reestablishing a mixed conifer forest and getting the 
trees up to where they're going to be able to compete with the 
brush.
    Mr. Walden. The other issue I would like somebody to 
address is--I believe, Dr. Bartuska, in your testimony, you 
indicated that reforestation need is roughly 899,000 acres, and 
last year the Forest Service completed treatment on 160,000 
acres, 79,000 of which regenerated naturally. It sounds like we 
are falling way behind where we should be on reforestation. Why 
and what can we do about it?
    Dr. Bartuska. We are trying to treat our highest priority 
areas, and so the 160,000 value for 2003 reflects that, and we 
are doing that within the appropriation. I think where there 
are additional needs on the national forest, they are 
identifying that within program and trying to address those 
also.
    But you raise a very important point, and that is, it is 
not all about active treatment. Some natural regeneration will 
take place, and I think we need to, through our analysis, 
determine where do we have to actually do some planting or do 
some aggressive treatment to get that restoration, or where do 
we just let nature take its course, so that analytical part is 
really critical.
    Mr. Walden. Now go to my Ranking Member on the Committee, 
Mr. Inslee.
    Mr. Inslee. Thank you. Before I forget, I want to put in 
the record a statement by Dr. Jerry Franklin, Professor at 
College Forest Services at UW, if I may.
    Mr. Walden. Without objection, absolutely.
    [The statement submitted for the record by Dr. Franklin 
follows:]

Statement submitted for the record by Dr. Jerry F. Franklin, Professor 
   of Ecosystem Studies, College of Forest Resources, University of 
                    Washington, Seattle, Washington

    Our scientific understanding regarding how forest ecosystems are 
affected by and recover from major disturbances--including intense 
wildfire and windstorm--has increased dramatically during the last 20 
years. Much of this ecological knowledge is not yet fully assimilated 
into forestry philosophy and practices. My objective in this testimony 
is to identify for you some important aspects of ecological science 
that need to be considered when developing plans for restoration of 
forests following stand-replacement disturbances by fire, wind, 
insects, and other agents.
    A first principle regarding forest disturbances is understanding 
that intense forest disturbances invariably leave behind significant 
legacies of organisms and organic structures (e.g., snags and logs)--
``biological legacies''--which are critically important to recovery of 
the forest ecosystem (Franklin et al. 2000). The concept of biological 
legacies emerged from research following the 1980 eruptions at Mount 
St. Helens where an incredible diversity of organisms and immense 
legacy of snags and logs survived the devastating disturbance and 
contributed to the rapid redevelopment of the ecosystems within the so-
called devastated zone.
    Legacies of snags, logs, and other woody debris are typically very 
large following an intense natural disturbance since such events kill 
trees but rarely consume or remove much of the dead wood. Even an 
intense wildfire typically consumes no more than 15% of the biomass and 
typically much less. A catastrophic windstorm blows down trees but 
consumes or removes essentially none of the organic matter!
    Types and amounts of biological legacies persisting on impacted 
sites are probably the most important variable in assessing the actual 
ecological impacts of a disturbance because of their important roles in 
recovery. The most conspicuous and among the most important of the 
biological legacies are the surviving live trees, standing dead trees 
(snags), and logs and other woody debris on the forest floor and in the 
streams. The living trees, snags, and logs play critical roles in 
lifeboating many animal, plant, fungal, and microbial organisms, such 
as by providing essential habitat (e.g., places to live and hide) and 
keeping the microclimate of the disturbed site within acceptable 
levels. The trees, snags, and logs also greatly enrich the structure of 
the young forest as it develops, increasing diversity and rate at which 
species that have been displaced and which need structural complexity--
such as Northern Spotted Owls--can return to the site.
    So, how does this legacy of dead wood contribute to the recovery 
and ultimate functioning of the post-disturbance forest ecosystem? In 
earlier times we believed that once trees were dead they provided 
little value to the ecosystem or to recovery processes. In fact, they 
were often viewed as waste, potential fire hazard, and an impediment to 
proper management. However, research during the last 30 years has shown 
the critical role that structures such as snags, logs and wood debris 
play in the functioning of forest and stream ecosystems including 
(Harmon et al. 1986; Maser et al. 1988):
    <bullet>  Provision of wildlife habitat;
    <bullet>  Long-term sources of energy and nutrients;
    <bullet>  Sites for nitrogen fixation;
    <bullet>  Seedbed for trees and shrubs; and
    <bullet>  Creation of fish habitat.
    These and other functional roles of woody debris are well 
documented in the peer-reviewed reviews by Harmon et al. (1986) and 
Maser et al. (1988) and literally hundreds of articles that have been 
published since.
    Snags, logs, and woody debris provide critical habitat for the 
majority of higher (vertebrate) animals (birds, mammals, reptiles, 
amphibians, and fish) and, probably, lower (invertebrate) animals 
(e.g., insects), as well. In many western coniferous forests the 
overwhelming majority of higher animals make some use of snags, logs, 
and woody debris and for many--including groups as diverse as 
woodpeckers and salamanders--woody structures are absolutely critical 
(see, e.g., Thomas 1979).
    The larger and the most decay-resistant snags and logs are the most 
important ecologically. Larger snags and logs will serve a large array 
of organisms and functions than smaller snags and logs as well as 
persist longer. For example, large snags are necessary for large cavity 
excavators, such as the Pileated Woodpecker and large logs are critical 
elements in creating stable aquatic habitat. Large snags and logs of 
decay-resistant species--such as cedars and Douglas-fir--can also 
persist and fulfill habitat and other ecological functions for several 
centuries in terrestrial environments or even millennia, in the case of 
stream and river ecosystems.
    The levels of biological legacies such as snags and logs that need 
to be retained following a major disturbance very much depends upon the 
natural resource objectives for the property and the natural 
disturbance regime of the site. Where recovery of natural ecological 
functions is a primary goal, removal of significant legacies of living 
trees, snags, and logs through timber salvage is not appropriate. This 
is particularly true in forest types and on forest sites where stand-
replacement (``catastrophic'') disturbance regimes are characteristic. 
It is sometimes argued that following a stand-replacement fire in an 
old-growth forest that snags and logs are present in ``excess'' of the 
needs of the site, in terms of ecosystem recovery. In fact, the large 
pulse of dead wood created by the disturbance is the only significant 
input of woody debris that the site is going to get for the next 50 to 
150 years--the ecosystem has to ``live'' off of this woody debris until 
the forest matures to the point where it has again produced the large 
trees that can become the source for new snags and logs (Maser et al. 
1988).
    In conclusion, the scientific lessons regarding biological legacies 
and the importance of retaining snags, logs, and other woody debris are 
being applied in regular timber harvesting practices (i.e., structural 
retention) but have not yet been fully incorporated into restoration 
policy. Timber salvage may be carried out for economic reasons. 
However, timber salvage will rarely achieve any positive ecological 
benefit as has been pointed out in a recent article in Science 
(Lindenmayer et al. 2004). Timber salvage should be viewed as a ``tax'' 
or debit on the recovery process. Removal of large, decay-resistant 
snags and logs is particularly negative because of impacts on long-term 
recovery and stand development processes.
Literature cited:
Franklin, Jerry F., David Lindenmayer, James A. MacMahon, Arthur McKee, 
        John Magnuson, David A. Perry, Robert Waide, and David Foster. 
        2000. Threads of continuity. Conservation Biology in Practice 
        1(1):8-16.
Harmon, Mark E., et al. 1986. Ecology of coarse woody debris in 
        temperate ecosystems. Advances in Ecological Research 15: 133-
        302.
Lindenmayer, D. B., et al. 2004. Salvage harvesting policies after 
        natural disturbance. Science 303:1303.
Maser, Chris, Robert F. Tarrant, James M. Trappe, and Jerry F. 
        Franklin. 1988. From the forest to the sea: a story of fallen 
        trees. 153 p. USDA Forest Service General Technical Report PNW-
        GTR-229.
Thomas, Jack Ward. 1979. Wildlife habitat in managed forests; the Blue 
        Mountains of Oregon and Washington. 511 p. USDA Agricultural 
        Handbook 553.
                                 ______
                                 
    Mr. Inslee. Thank you. I want to talk about the, or ask you 
to distinguish something I think it is easy to lose the forest 
for the trees on this, and that is to distinguish replanting 
from harvest of the dead and standing timber. I have seen 
pictures of some of these projects, or on the video, and on 
this picture and the like. Do they go hand in hand? For 
instance, can your replant successfully and remove none of the 
snags and stumps? Is there a relationship between those two? 
How do those two functions interrelate? That is for anyone who 
might tackle that.
    Mr. Eubanks. I can address that, particularly as it applies 
to the two fires that I spoke about, Gap and Red Star. We did 
in fact reforest the areas where we were able to remove almost 
no dead standing timber. It is not so much an issue of whether 
we can successfully plant the trees. We can certainly do that. 
I think the real issue is whether we can protect those trees in 
the long run, and whether or not they are going to be very 
susceptible to additional catastrophic wildfire. But we 
certainly can go in and plant them, as long as we do it soon 
enough that there is not a hazard from the dead trees to the 
planting crews. I mean if you waited too long there would be a 
hazard there just from falling material. But if we get in there 
soon enough we can certainly plant them.
    Mr. Inslee. So if your goal was solely kind of ecologically 
based, in other words, you wanted to build an old growth forest 
as rapidly as possible, economics was not an issue at all, is 
there a reason, would you want to clear-cut the dead timber for 
an ecological reason?
    Mr. Eubanks. I would say that we would not clear-cut on 
national forest in the traditional sense. In fact, our plans in 
these projects from the very beginning, called for leaving some 
of the largest dead trees for long-term habitat and for soil 
nutrient recycling, those kinds of values, but we would have 
removed a significant number of the large and smaller dead 
trees simply to provide protection in the long run from 
wildfire, the reoccurrence of wildfire, because as I mentioned 
in my testimony, these part fire areas are in true fire ecology 
systems. It is not a question of whether fires are going to 
come back, it is when they come back, and generally in these 
areas, we anticipate it would be less than 35 years recurrence 
of fire.
    Mr. Inslee. In the projects you made reference to, were 
those in stand replacement historic areas, where there had been 
stand replacement fires in the past?
    Mr. Eubanks. Yes. Although in the Sierra Nevadas, generally 
the magnitude of stand replacement fires was much smaller. It 
was one of those situations where there--you have certainly 
seen situations in the Pacific Northwest where you are that 
stand fires, even the stand replacement fires are very patchy. 
There are some areas of high intensity, some low intensity. 
That was normally the situation even in the Sierras. But what 
we are experiencing now are much larger areas of high-intensity 
fire than normally occurred because of the buildup of fuels 
over the last 100 years.
    Mr. Inslee. And because of the drought, do you think?
    Mr. Eubanks. Certainly that has an effect. That enhances 
the effect.
    Mr. Inslee. Again, taking the economics out of it, I was 
just referring to Dr. Franklin's statement here that I put in 
the record. He was describing recent research which has shown 
substantial ecological benefit of the deadened trees. Wildlife 
habitat, which you mentioned, long-term sources of energy and 
nutrients, sites for nitrogen fixation, seed bed for trees and 
shrubs if they have other ecological values.
    And he said something that is interesting to me. He said 
that only 15 percent of the biomass is typically actually 
consumed, even in a stand replacement fire, which is surprising 
to me.
    But anyway, he suggests that there is, from a biological 
standpoint, value of the timber, dead timber, and you are 
saying there is also a benefit of reducing fuel hazard, of 
getting it out of there. How do you make a decision from an 
ecological standpoint? Where is the right balance there? Do you 
do it on a project-by-project basis, or is our science just too 
uncertain to really be able to figure out what the net balance 
is?
    Dr. Bartuska. I just want to take a broad answer to that 
one, and Steve will follow up with his specific examples. I 
think the science does know enough that we can go in and look 
at certain of these ecosystems and determine where you would 
have on a landscape the value of leaving snags and down-woody 
debris where it adds to either the stream quality or to the 
structure of the forest. But it is also clear that if we want 
to take a part of that landscape and get it to the desired 
condition faster, which means bringing in the next generation 
of species and retaining them over time, then certain areas you 
will have to do some treatment.
    I think part of our challenge, like the Biscuit Fire 
Recovery is--
    Mr. Inslee. Can I stop you just for a moment, because I 
think this is an important point.
    Dr. Bartuska. Sure.
    Mr. Inslee. You said you have to do some treatment. Again, 
I am trying to distinguish the replanting from the removal of 
the snags, and you seem to lump them together. Maybe I 
misunderstood.
    Dr. Bartuska. Those are all different kinds of treatments, 
so there are multiple things going on, and I think leaving--it 
is a deliberate decision, so it is a treatment, if you will, to 
leave dead and dying material as snags and as coarse woody 
debris. But similarly, if you wanted to take a piece of this 
landscape and move it to your future condition faster to ensure 
you have that late successional forest faster, then removing 
some of that material, harvesting some of that, and planting or 
possibly not--natural regeneration is still part of the 
picture--so you have all of these different pieces, and part of 
what we have been doing with I think the science is pulling 
those pieces together and then having the tools for managers to 
make some decisions.
    The other thing I would like to just comment, in the big 
scheme of things we have been focusing on fire in the West, but 
this same scenario we dealt with it after Hugo in South 
Carolina, we dealt with it after Boundary Waters Canoe Area 
blowdown, where you had this huge tract, 10,000 acres of land, 
and if you had not done some treatment and recognized the role 
of downed material versus the regeneration, then we would have 
ended up with a very different forest. And certainly in South 
Carolina, we might have lost part of Charleston, South Carolina 
due to fire.
    So I think those are all part of pieces that Jerry's very 
approximately pointing out you have got to look at.
    Steve?
    Mr. Eubanks. Well, I would just mention Jerry Franklin is 
one of my mentors. I worked with him extensively in the 
Northwest, and so I respect what he is saying.
    Your question was really along the lines, do we have sort 
of broad guidelines, or do we do some project specific 
assessment, and it really is project specific assessment. We 
try to take a look at the conditions that we are dealing with, 
and not use some broad brush guidelines.
    I just mention that in the case of the Red Star Fire, the 
fire burned on the Tahoe Forest about 10,000 acres. Of those 
10,000 acres we were proposing to come back in and actually do 
some salvage logging, replanting and restoration on about 1,000 
acres, actually, 1,039 I think is the figure I used. And those 
were the areas that had at least 79 percent of the trees that 
were dead. So one of the things I would point out is that we 
had areas that had 74 percent of the trees that were dead that 
we were not treating, on down to that very low intensity fire. 
But we had lots and lots of acres out there that had extensive 
dead trees beyond what we were proposing to treat. We were 
trying to pick the strategic areas that we could best deal with 
that enabled us to restore old forests more quickly.
    Mr. Inslee. Just one more quick question if I can. In our 
decisions regarding harvest of standing timber now, what 
percentage decisions are made taking into consideration the 
economics of it, in other words, generating some stream of 
revenue for someone, and what percentage of these cases where 
that is really not an issue in the decision? In other words, 
are these decisions biologic, or are they economic, or both, 
and how do you distinguish those?
    Mr. Shepard. It really depends on the objectives that you 
are trying to meet under the Land Use Plan which vary across 
different areas. If you take the Northwest, for example, under 
the Northwest Forest Plan, we have approximately 80 percent of 
the land that is in some type of reserve. Where we get large 
fires in there, we may do some salvage, but that is secondary 
to trying to reestablish there and move it toward an old growth 
condition because we are trying to manage for spotted owls and 
marbled merlet. Other areas with the matrix land, where we are 
managing predominantly for timber production off those lands. 
While we would not go in there and take off all of the dead 
material because there is value in standing dead and in down 
woody material, we would go in there and take out more trees in 
an area like that.
    Mr. Inslee. Thank you.
    Mr. Walden. Thank you.
    The Chair recognizes the gentlewoman from South Dakota.
    Ms. Herseth. Thank you, Mr. Chairman.
    I want to thank each of you for your testimony today, and 
how this hearing and your testimony and that of others later on 
will help guide us as we go forward on the best way to be part 
of our future efforts to help forests recover from devastating 
fire.
    I represent South Dakota, and we have had several major 
forest fires in the Black Hills National Forest in the past 
number of years, including the Jasper Fire, which affected 
83,000 acres. It was the largest forest fire in the Black Hills 
in a century, and as we have seen in South Dakota and some of 
what you have testified to today, the effect very large hot 
fires can have in inhibiting our efforts to fully recover the 
forest, and how they inhibit those recovery efforts. I 
certainly acknowledge how critical it is for the Forest Service 
to be in the best position possible and how we need to improve 
the manner in which you can go about undertaking the recovery 
efforts.
    You had mentioned, Dr. Bartuska, at the outset, as it 
relates to the Healthy Forest Restoration Act, that most of the 
focus in on the fire safety issues prior to a devastating fire, 
and what we do in treatment management, thinning of the forests 
to reduce the fire hazard, whether it is because of disease, 
storm-fallen trees, other issues that we have had, just because 
of how quickly the Ponderosa pine in the Black Hills 
regenerates, that we have had in the Black Hills.
    Recently, a couple weeks ago, when I was visiting with some 
of the folks with the Forest Service in the Black Hills, as 
well as individuals in the timber industry and others that live 
in the communities within the Black Hills, there has been what 
is called the Prairie Project, which has been a timber sale 
that included a lot of public input to try to find some 
consensus because of the public awareness in the Western part 
of South Dakota, especially in those communities near and 
within the forest about the fire hazards, the need for fire 
safety. One of the interesting things that came out of that 
discussion with the district supervisor is, because of some of 
the controversy in the past, what they did as it related to the 
consensus building efforts to get the public input to generate 
more levels of public trust, and to ask the first question, not 
how we are going to achieve the desired result for thinning or 
reducing the fuel hazard, but what do we want to see? What can 
we agree is going to be the best thing to see, you know, in 
this parcel of that sale?
    When they sought the input and arrived at that consensus, 
the tools they then used became much less controversial, and it 
has been a really good example, in the Black Hills anyway, of 
how they can go about minimizing some of that controversy that 
has dogged these efforts in the past for thinning.
    But now I want to move toward this recovery and restoration 
and rehabilitation, to ask you what your thoughts are, 
regardless of what legislation we have in place, regardless of 
the regulatory issues that come into play, directives, 
categorical exclusions. Those are going to be there. We can 
work toward what tools the Forest Service needs. But over and 
above that, your thoughts on how in this case we can find and 
try to develop that kind of consensus and that type of public 
input based on some of the science that you have testified 
about today to move forward, understanding the need to try to 
avoid some of the unnecessary delays and very lengthy delays 
that litigation can cause when we don't have that kind of 
consensus.
    Dr. Bartuska. It sounds like you were involved in a very 
interesting process with the Prairie Project. I am not familiar 
with that one.
    The only response I guess I would give to your remarks is 
that you hit a very important part of what researchers have 
been doing with managers, and that is the idea of developing 
data visualization tools, so that whether it is in a public 
meeting or ourselves as managers, we can see what the condition 
is, what that forest is that we want to have, what it looks 
like, how it functions, but see it in front of us, and then 
manipulate it so that you could actually put different 
treatments on that landscape.
    I mentioned the forest vegetation simulator. It is a really 
good tool to have a--it is computer generated, but it still 
looks like a forest. Then you change the condition of the 
forest based on different treatments, or you introduce a bark 
beetle outbreak or you introduce a fire. It allows a member of 
the public to see what each of those different forests will 
look like given this background. In some experiences we have 
had in the past that I am familiar with, on the Dixie National 
Forest some years back, and also in Colorado, those tools have 
been very important and effective to talk through the community 
about what they want from the forests, and I think that is a 
real good way of how science and management has come together.
    Now, the challenge is, of course, backing up and saying, 
just as you indicated, ``you have your desired condition. We 
agree that is what we want. How do we get there?'' But I think 
seeing it and agreeing that this is what we want makes it a 
much better product at process.
    Ms. Herseth. I appreciate that, and it sounds in the 
sharing of information with people in the community and 
building that consensus, and you know, this really is, in 
addition to the testimony you have offered today about what we 
do to restore the health in a post-fire situation, but when we 
are looking at the political question here, and the local input 
involved in finding the consensus that I think is part of the 
key to moving forward in a way that even by some of the 
questions that have been posed and what science will tell us, 
from what I think you are saying there is the research projects 
that you are introducing, and even to a greater degree right in 
some of the other forests across the country as it relates to 
the restoration, the rehabilitation efforts, and then sharing 
the results of some of those projects as well as the efforts as 
they varied, understanding, as I think, Mr. Eubanks, you said 
that each, based on the unique ecosystems involved with our 
different forests, that a project-specific assessment is 
generally required in addition to what science may tell us more 
broadly. That is where I am just--if you have any other 
thoughts to share about how the Forest Service can go about 
improving the manner in which it seeks some of these--the local 
input, the public input, to find the consensus as it relates to 
the post-fire operation.
    Dr. Bartuska. I think if I understand the question you 
have, clearly we have a commitment to working at the community 
level and being, because of the site-specific nature of some of 
our projects, even if we have these broad analyses ultimately 
you have to get it down to the local level, and I think over 
and over again we are trying to improve that particular 
community interaction. The example I gave was just to provide a 
tool to help improve that particular discussion and improve 
those kinds of communications.
    Ms. Herseth. Thank you, Mr. Chairman.
    Mr. Walden. Thank you.
    I believe Mr. Inslee has one more question, and then we 
will move to the second panel.
    Mr. Inslee. I wanted to ask you about the return on sales 
of harvesting of these salvage sales. My understanding, they go 
into the salvage sale account that is meant to be used for 
other salvage activities, restoration activities. Is that 
generally correct?
    Mr. Shepard. Well, for BLM it is, and Steve would have to 
answer for the Forest Service, but I believe it is also the 
case with them.
    Mr. Eubanks. In the case of many of our projects, there is 
not just the Salvage Sale Fund, but it would also be Knutson-
Vandenberg Fund, and Brush Disposal Funds. There are different 
kinds of cooperative funds that we use that would do further 
work on the project area. Knutson-Vandenberg can do fuels 
treatment work, but it can also do wildlife habitat improvement 
work, reforestation, further thinning later on down the line. 
Brush disposal work would deal with just fuels treatment of the 
materials that needed to be treated as a result of that 
project. Salvage sale would be one of the funds that we would 
also use certainly to use on future projects.
    Mr. Inslee. Let me ask you a hard question. You have a very 
difficult job balancing these multiple needs of the forests, 
partly in salvage sale situations, deciding what should be 
harvested, what should not. Those are really hard decisions 
that you have as professionals, to balance the community 
interest and all this, and some have suggested, myself 
included, that it is an unhealthy incentive to have the agency 
that is charged with that responsibility to have an incentive 
on one side of the ledger, in this case to make harvest 
decisions that would increase the revenues to allow you to 
fulfill your other obligation, that that is just a bad policy 
that creates an incentive for the Service to go this one 
direction rather than another. Then it would be asking you to 
engage in some sort of super human beneficence to sort of 
ignore that when you have to make these tough calls.
    What would you say about that? In my view, this money ought 
to go to the General Fund so you are relieved of the decision 
or any economic incentive for your own agency on what you do. 
You ought to be driven by your policy decisions and the 
community input and not your own budget. What is your reaction 
to all that?
    Mr. Eubanks. If we had no guidelines under which we are 
operating to begin with, I think perhaps some of your fears 
might be realized. The bottom line is that we do have in fact a 
forest plan that guides what the desired future condition is. 
This really fits with what the Congresswoman from South Dakota 
was talking about in terms of looking at what we want in the 
future.
    There has been a fairly broad consensus in terms of what we 
would like the forest to look like in the future, and that is 
what really guides our actions. It is not purely the economics. 
Certainly we are concerned about how do we get that work done 
and the economics that--if we decide ahead of time that we in 
fact want to have a salvage operation to provide long-term fire 
protection and protection of a new forest and get it 
established quickly. The quicker we do that, the more economic 
return there is. That is where the economic comes in. It is not 
in deciding what job we want to do ahead of time.
    Mr. Inslee. Thank you.
    Mr. Walden. I want to thank the witnesses for your 
testimony today. The record will remain open for 10 days, and 
other members on the Committee who may have had other conflicts 
today may have questions they would like to submit. We would 
appreciate your response to those in writing.
    Now I will ask our second panel of witnesses to prepare to 
come up to the table, and we appreciate your patience with us 
today. On Panel II we have Steve Thomas, who is the Assistant 
State Forester of the Oregon Department of Forestry; Mr. John 
Sessions, the Stewart Professor of Forest Engineering at Oregon 
State University; Chips Barry, the Director of the Denver Water 
Board; and Cate Hartzell, City Council Member, City of Ashland, 
Oregon.
    We welcome all of you today. We appreciate your time, 
talent and input, and we look forward to hearing from you. Let 
me remind you that under our Committee Rules, you are supposed 
to limit your oral statements to 5 minutes. Your entire 
statement will appear in the record.
    I would first like to recognize Mr. Thomas for his 
statement. Good morning, and we welcome you--or good afternoon. 
It is still morning in Oregon, but afternoon here. Welcome.

STATEMENT OF STEVEN R. THOMAS, ASSISTANT STATE FORESTER, OREGON 
                     DEPARTMENT OF FORESTRY

    Mr. Thomas. Good morning, Mr. Chair, and members of the 
Committee. It is a pleasure to be with you this morning. Oregon 
is very proud of the work that has gone on the Tillamook Burn, 
and I am pleased with the video you showed. Maybe I should just 
have you ask questions now. Dr. Moore did a pretty good job of 
trying to explain what has gone on there. Let me give you a few 
comments that may help your deliberations.
    I want to talk to you briefly about the Tillamook State 
Forest. The Tillamook State Forest is on the Coast Range about 
40 miles west of the City of Portland, with some of the most 
productive forest land in the world. The State has a forest 
there, Tillamook State Forest, 360,00 acres, of which about 
250,000 acres were included in the Tillamook Burn, and the 
Tillamook Burn, as also mentioned by Dr. Moore, was one of 
North America's largest wildfires.
    The Department has been engaged in the Tillamook for over 
70 years, from the fire suppression efforts that started in the 
'30s up until the current day management. We are the managers 
of the Tillamook.
    I will hit a couple highlights for you this afternoon, 
first talk a little bit about the fires, then about the 
rehabilitation reforestation efforts, and then finally close 
with where we are with the forest today. I also welcome the 
members of the Committee to come to Oregon if your work takes 
you there and have a tour of the Tillamook. Sometimes that is 
the best way to really see what is going on on the ground and 
what might be potentially available to you.
    To start with, before the fires, the original forest 
covered the Coast Range with stands of large trees, and some of 
these were 3 to 7 feet in diameter. Very little logging had 
gone on on the Tillamook. By 1933, most of the logging had been 
on the periphery of the forest and not on the interior, had 
been done with trains and steam donkeys.
    But then there were the fires, four of them basically. We 
talk about the Tillamook Burn, and everybody thinks maybe it is 
one fire, but there were actually four fires that were at 6-
year intervals, called the 6-year jinx, starting in 1933 and 
running through 1951. The fires devastated the landscape and 
the economies of the surrounding area. Coming on the heels of 
the Great Depression, it was a devastating blow for all of 
Oregon.
    The 1933 fire was the largest fire. The first 10 days had 
burned 40,000 acres. Then in 20 hours it burned 200,000 acres, 
so 240,000 acres in basically an 11-, 12-day period, but most 
of that coming in 20 hours. In total, the four fires burned 
around 350,000 acres, of which 250,000 of that eventually came 
into State ownership.
    So despite this devastation, there was lot of early 
visionaries that foresaw a new forest from the ashes, and what 
followed was the beginning of a remarkable transformation of 
the landscape. The transformation occurred generally in two 
specific periods, and I think what is interesting here is the 
longevity of this transformation. It did not happen over night.
    The first period was from 1933, which was the date of the 
first fire, to 1948. Not much reforestation occurred in the 
Burn during that period of time because no one had undertaken a 
project of this magnitude, so there were many questions to be 
answered.
    In addition, the salvage logging was underway, and these 
were fairly large logs, and so salvage logging went on for 
years, and some records indicate that 7 to 10 billion board 
feet of the 13 billion that were destroyed in the fire were 
eventually salvaged from the burn. Many questions about who 
should own the land. Many of the private landowners have gone 
tax delinquent. So should the counties own the land? Should the 
state own the land, or should the Forest Service own the land? 
Who was going to undertake the restoration of this forest? Who 
was going to finance it? How was it going to be financed? No 
one had undertaken a project of this magnitude. And how would 
public funds be acquired to do that? Eventually the funding was 
put up by the State of Oregon. There were no Federal funds 
involved in this project.
    Planning. We have several research projects underway, and 
plans put together so that people have some idea, if this 
project was undertaken, how it would be accomplished.
    In addition to that, remember, between 1933 and 1948 there 
were two additional fires in the Tillamook Burn, the 1939 fire 
and the 1945 fire. While these actually increased the size of 
the total burned area, they also reburned a significant amount 
of the burn. So there were a number of people who were hesitant 
about reforesting the burn until it could be fireproofed and 
they didn't want to invest the money until they felt it wasn't 
going to burn up again. I might add there was a fire in 1951, 
and it was mostly within the old burn.
    So there was a big challenge for Oregonians, the size of 
the area, the logistics required, the organization of people, 
equipment and funds, the need for seed and seedlings. It wasn't 
until about 1948 that things really got underway in terms of 
reforesting the burn. In 1948, Oregonians passed a 
constitutional amendment that allowed for funding of the 
reforestation's rebonding process.
    That really started the second phase of this reforestation/
rehabilitation effort, which went on from 1949 to 1973, 24 
years. During that period approximately $12 million were spent, 
millions of trees planted, billions of seed dropped from 
helicopters, 220 miles of firebreaks belt to get the snags out 
of the way so that it wouldn't burn up again, and many 
Oregonians were involved, contractors, inmate crews, 
volunteers, school children. It was an effort by all Oregonians 
to reforest and rehabilitate the burn.
    So what is the legacy of that fire, the salvage and the 
replanting? Well, the result is--and I would like to have quite 
as glowing a report as Dr. Moore made--but the fact is we have 
a very densely packed, even-age, single species forest, which 
today is probably what we do not necessarily want for the 
future forests. Nearly 65 percent of the Tillamook is in this 
type of forest structure, providing limited biodiversity.
    Our view of biodiversity today would have a variety of tree 
species, ages, and forest structures across the landscape. 
These conditions are not prevalent on the Tillamook today, and 
that knowledge informs our activities and plans for the desired 
future condition of the forest, which would have about 50 
percent of the forest being an older forest structure, and the 
remaining 50 percent being through regeneration through younger 
stands.
    Some ask what would the Tillamook look like today if no 
rehabilitation and reforestation occurred. Remember, some of 
the recommendations were to turn this into grazing land, and 
some said put a super fire line around it and just let nature 
take its course. Neither of those particular alternatives were 
followed up on.
    Certainly some regrowth would have occurred. The problem 
was that due to the multiple burns and the complete loss of 
seed sources within the area, I mean it would be difficult to 
imagine a landscape that would have a vigorous forest upon it. 
A much higher degree of alder and brush species would exist, 
and we would expect much lower levels of habitat recovery. 
Thanks, however, to our predecessors, the former Tillamook Burn 
is a productive forest which grows like a sea of green across 
this stretch of the coast range.
    An interesting sidelight is that the sea of green is valued 
by all Oregonians, no matter what their view on forest 
management might be. During the last State legislative session 
two bills were proposed. One person called them bookend bills. 
One bill said we ought to manage to forests for timber 
production. One bill said we should set 50 percent of the 
forest aside for reserves and old growth, and grow old growth, 
and then manage the other 50 percent. Both of those groups, 
with quite different values on how forests could be managed, 
saw the value of the Tillamook in being able to achieve their 
goals in the future. So the foundation that we have out there 
allows many pathways for Oregonians to manage their forests 
into the future.
    Today we manage the forests to provide a sustainable flow 
of social, economic and environmental values, and at the same 
time we manage today to leave options available to the future. 
The rebirth of the Tillamook Burn into a healthy and 
sustainable forest is one of Oregon's most dramatic success 
stories, and it is a forest and a story that will continue to 
grow, and one that we will continue to tell.
    Thanks in part to strong support from the Oregon 
Congressional Delegation, including Representative Walden, I am 
proud to say that next year we will open a forest education 
facility known as the Tillamook Forest Center to help share the 
incredible story of recovery and sustainable forest management 
with hundreds of thousands of visitors. The landscape of the 
Tillamook has witnesses dramatic change in the last century. 
The events that played out there have defined the times and 
shaped the options we have available today. The decisions we 
make today are thus linked to the past and will in turn shape 
the future.
    Thank you very much for inviting me.
    [The prepared statement of Mr. Thomas follows:]

       Statement of Steven R. Thomas, Assistant State Forester, 
                     Oregon Department of Forestry

INTRODUCTION
    Good Morning Mr. Chair and Members of the Committee. My name is 
Steve Thomas and I serve as the Assistant State Forester for the Oregon 
Department of Forestry--based in Salem, Oregon--responsible for the 
management of just under 800,000 acres of Oregon's state-owned forest 
land.
    As Representative Walden has no doubt told you, and perhaps many of 
you have seen, Oregon has been blessed with rich and diverse forests 
that blanket nearly half of our state. There are 28 million acres of 
forestland in Oregon--our total statewide land mass is just over 64 
million acres.
    I am very pleased to be here this morning to address the past, 
present and future of one particularly renowned piece of that 28 
million acre forest landbase: the 364,000-acre Tillamook State Forest, 
located in the far northwest corner of Oregon.
    We offer to the committee our experience with the restoration and 
management of the Tillamook, for over 70 years, from fire suppression 
to the current day management of the forest.
FOCUS
    I come before you as a person who knows the Tillamook as an 
Oregonian, a Forestry Department employee, and more recently as a 
person who has helped set policy for the future of the forest. This 
morning, I will highlight key chapters of the Tillamook State Forest 
Story:
    <bullet>  How the original forest was devastated by a series of 
wildfires in the 1930s and 1940s;
    <bullet>  How rehabilitation and reforestation brought communities 
together, while also beginning to restore the forest;
    <bullet>  How two generations of forest management created options 
for the future;
    <bullet>  How sustainable forest management today in the Tillamook 
seeks to address social, environmental and economic values.
    I have submitted additional materials to staff, that will be 
entered into the record. In addition, we welcome members of the 
committee to a tour of the Tillamook State Forest should your work 
afford you an opportunity to visit Oregon.
OVERVIEW AND EARLY HISTORY
    To begin, I felt it would be helpful to describe where this forest 
is: The Tillamook State Forest is located in the northern Oregon Coast 
Range Mountains, about 40 miles west of Portland. The forest covers 
about 364,000 acres, roughly 570 square miles.
    Understanding the history of this forest is crucial to 
understanding the challenges and opportunities we face today and in the 
future. For the most part, the outline of today's Tillamook State 
Forest follows the footprint of areas burned during the 1930s and 
1940s. Prior to the fires, the entire area was privately owned. The 
story of the Tillamook (and really of any forest) is defined by change. 
Here's one interesting facet of that: The nearly complete change of 
property ownership in the Tillamook, from private to state ownership as 
a result of the fires.
    Before the fires, the original forest covered the coast range with 
large stands of old trees, openings created by wind, fire, disease, and 
many stands of vigorous young trees. By 1933, when the first fire hit, 
there were few roads through the area, and much of the forest had not 
been logged. Steam donkeys and rail lines were beginning to operate 
around the edges of the forest, and communities at the forest's edge 
were depending on the jobs, raw material and revenue that came from 
these private forest lands.
    But then there were the fires. Four of them, burning at six year 
intervals, devastating the landscape and the economies of the 
surrounding area. Coming on the heels of the Great Depression, this was 
a devastating blow for all of Oregon.
    The 1933 fire, like those that followed, stemmed from a logging 
operation. At first, the loggers thought they could contain it, but it 
quickly outran them. CCC firefighters, conscripts, loggers and 
volunteers had all they could do to stay out of the way. Hard to 
imagine, but the 1933 fire burned 200,000 acres in 20 hours. That's an 
average of 10,000 acres--or 15 square miles--per hour.
    In the hard years immediately after the fires, many landowners in 
the burned-over area stopped paying taxes and let their lands revert to 
the counties. The fires left behind a landscape virtually devoid of 
green trees. As far as you could see, only brown, gray and black.
RESTORATION AND TRANSFER TO THE STATE
    Despite this, a spirit of cooperation, forged in part by the fires 
themselves and the hard economic times, began to arise about the 
Tillamook Burn. Early visionaries foresaw a new forest from the ashes.
    What followed was the beginning of a remarkable transformation of 
the landscape. Remember that this is the depression. Remember that this 
entire landbase is privately owned. Salvage operations began, 
ultimately reclaiming about 10 billion board feet of timber from the 13 
billion board feet burned by the fires. Companies--former rivals--
banded together to create a consolidated company that salvaged and 
milled the burned timber.
    Put in today's terms, the Tillamook Burn salvage era produced 
almost three times the amount of today's total annual timber harvest 
from all of Oregon's forests: state, private and federal combined.
    In a series of agreements begun with the 1939 State Forest 
Acquisition Act signed by then-Governor Charles Sprague, these burned-
over lands were transferred from the counties to the state. As new 
state forests, these lands would be managed to provide revenue for the 
counties and to provide a wide range of forest values for all 
Oregonians. This early vision shaped the forest we know today.
    Then, there was the reforestation. It started modestly at first, as 
an experiment really. The challenge was formidable in every way. The 
size of the area, the logistics required, the organization of people 
and equipment and funds, the need for seeds and seedlings. It was a 
time of great innovation. Reforestation gained speed as Oregonians 
passed a constitutional amendment in 1948 to fund the reforestation 
process.
    Hundreds of thousands of volunteers and contract tree planters 
helped restore the Tillamook Burn. In the period between 1949 and 1972, 
more than 72 million seedlings were planted by hand, creating a new 
forest from the ashes. More than a billion seeds were dropped from 
helicopters. Students from across northwest Oregon helped replant the 
burn. Though the territory they planted was less than 1 percent of the 
landscape, their memory of that collective act lives on today. One 
teacher, reflecting on the completion of reforestation, wrote: ``We 
have completed our mission of planting trees and growing citizens.''
THE LEGACY OF FIRE, SALVAGE AND REPLANTING
    The wildfires of the 1930s and 1940s--and the salvage operations 
that followed--had huge impacts on this region. The volume of green 
timber killed by the fire has been estimated at 13 billion board feet. 
Natural reseeding processes were interrupted and in some areas seed 
sources were destroyed. Fish and wildlife habitat was devastated. The 
local economies and communities suffered lost wages, lost taxes, lost 
jobs. Land ownership patterns and practices were significantly changed.
    At the time, common practice was to plant 1,000 trees per acre. 
That's different from what we plant today. Today, 400 trees per acre in 
the Coast Range is considered fully stocked, and that's with an eye 
toward early thinning. Of course, at the time, there was little science 
or empirical evidence to suggest how to accomplish this kind of 
project. The other element to note was that during the 23-year 
reforestation process, Douglas-fir was the only species of tree planted 
in The Burn. We know that Doug-fir was and is the predominant tree in 
this region, but there were plenty of other species, very few of which 
were planted at that time.
    How does that legacy affect practices today and options for the 
future? Today we have a 570 square-mile forest of trees that are 
essentially all the same species and all planted about the same time. 
This context poses plenty of challenges for today and the future. How 
do you create a forest management plan for such a vast even age single 
species forest? How do you work to restore biodiversity? The context of 
today's forest--shaped by the events of the past--means we have a lot 
of work to do. Getting the trees in the ground, as it turns out, may 
have been the easy part.
    We have a very densely packed, even aged, single species forest. 
Nearly 65 percent of the Tillamook is in this type of ``forest 
structure,'' providing only a narrow niche of habitat, and very limited 
diversity. Biodiversity comes through having a variety of tree species, 
ages, and forest structure or stand types. These conditions are not 
prevalent in the Tillamook today and that knowledge informs our 
activities and plans for the future.
    What would the Tillamook look like today if there had been no 
rehabilitation and reforestation? Certainly, some regrowth would have 
occurred. But due to the multiple fires, and the complete loss of seed 
source in some areas, it is fair to imagine a landscape still 
struggling to support a vigorous forest; a much higher degree of alder 
and brush species; and lower levels of habitat recovery, particularly 
in riparian areas. Thanks, however, to our predecessors, the former 
Tillamook Burn is a productive new forest, which grows like a sea of 
green across this stretch of Coast Range.
    Today, we manage the forest to provide a sustainable flow of 
social, economic and environmental values. And at the same time we 
manage today to leave options available to the future. The rebirth of 
the Tillamook Burn into a healthy and sustainable forest is one of 
Oregon's most dramatic success stories. And it's a forest and a story 
that will continue to grow, and one that we will continue to tell. 
Thanks in part to strong support from the Oregon Congressional 
Delegation, including Representative Walden, I am proud to say that 
next year we will open a forest education facility known as the 
Tillamook Forest Center to help share this incredible story of recovery 
and sustainable forest management with hundreds of thousands of 
visitors.
    The landscape of the Tillamook has witnessed dramatic change in the 
last century. The events that played out there have defined their times 
and shaped the options we have available today. The decisions we make 
today are thus linked to the past. And will in turn shape the future.
                                 ______
                                 
    Mr. Walden. Thank you. We appreciate your testimony too, 
and the State's work on the Tillamook.
    I now would like to recognize Mr. John Sessions for his 
statement. Good afternoon and welcome.

STATEMENT OF JOHN SESSIONS, UNIVERSITY DISTINGUISHED PROFESSOR 
   OF FORESTRY AND STEWART PROFESSOR OF FOREST ENGINEERING, 
          COLLEGE OF FORESTRY, OREGON STATE UNIVERSITY

    Mr. Sessions. Thank you, Mr. Chairman.
    I am John Sessions, Professor of Forestry at Oregon State 
University. Last year I was lead author of a study to examine 
the cost of management delay on restoration following the 2002 
Biscuit Fire, the largest fire in recorded Oregon history, 
burning more than 400,000 acres.
    Most of the Biscuit is being managed for wilderness and to 
provide habitat for species that live in older conifer-
dominated forests and for recreation and watershed production 
purposes. A small part is managed for multiple use, including 
timber production.
    I want to make six points regarding opportunities to hasten 
forest regrowth and the costs of management delay after 
catastrophic fire in Southwestern Oregon.
    Point 1: Natural recovery of large, intensively burned 
areas to mature conifer-dominated forest is typically slow and 
uncertain, and in this area, will take perhaps 200 years.
    Point 2: Well-established silvicultural techniques can 
hasten conifer regrowth. We have learned through $25 million in 
research and more than 20 years' experience, that we can 
successfully plant and establish conifers in Southwest Oregon. 
With control of competing vegetation we can maintain rapid 
height growth, double the conifer diameter growth rate, and 
substantially reduce the time necessary to regrow a conifer-
dominated forest. The science is very clear on this point.
    Point 3: Conifer regeneration costs rise rapidly as a 
function of time since wildfire. Conifer forests, if planted 
immediately, can be reestablished at a fraction of the cost, 
than if delayed 5 years.
    Point 4: Standing fire-killed trees, while having other 
values, contribute to future fire risk, including the potential 
of long-term soil damage.
    Point 5: Salvage value of standing fire-killed trees 
declines rapidly. Delay results in lost opportunities to 
provide resources for society, employment, and to provide finds 
for restoration. Currently, by the time decisions are made and 
implemented on Federal forests, only the largest most 
commercially valuable species have remaining economic value. 
More rapid decisionmaking could provide a win-win situation 
where smaller dead trees could be salvaged while they have 
economic value, and larger dead trees left onsite for wildlife 
and other values. If agencies were allowed to move quickly to 
utilize the smaller dead trees that the industry is now geared 
for, the debate over salvage and over the large dead trees 
would be much reduced.
    Point 6: Time is not neutral. The window of opportunity to 
rapidly restore conifer forests closes quickly. With regards to 
the Biscuit, the restoration decision have been made. The 
record of decision is now public. 4 percent of the burned area 
will be salvaged, 7 percent will be planted, and the majority 
will be left for nature to chart its course. On the actively 
managed lands, effectiveness of forest restoration and its cost 
now depends on whether wood products firms will take the risk 
of investing in fire-killed timber entering its third summer, 
and whether groups opposed to reforestation and utilization try 
to obstruct agency action.
    My key message is there is substantial ecologic, economic 
and social costs to delays in post-fire restoration activities. 
They are large. They are important, and they are real.
    Thank you very much.
    [The prepared statement of Mr. Sessions follows:]

   Statement of John Sessions, University Distinguished Professor of 
   Forestry and Stewart Professor of Forest Engineering, College of 
          Forestry, Oregon State University, Corvallis, Oregon

Introduction
    Mr. Chair, I am John Sessions, University Distinguished Professor 
of Forestry and Stewart Professor of Forest Engineering at Oregon State 
University. I have advanced degrees in civil engineering, forest 
engineering and a PhD in forest management. I have been teaching and 
doing research in forest planning and transportation planning at Oregon 
State University for 20 years. I also provide strategic planning 
support to the Oregon Department of Forestry (ODF) on the Tillamook and 
Elliott state forests. I have prior experience in harvesting operations 
and management with the forest industry and 10 years experience with 
the USDA Forest Service at the district, forest, regional office, 
research station and Washington Office levels. I have provided planning 
advice and services to companies and agencies in 16 countries on five 
continents. Specific experience relevant to my testimony includes hot 
shot crew fire operations experience, forest planning and fire modeling 
on the Congressionally mandated Sierra Nevada Ecosystem Project, the 
Applegate Project, and currently the Jackson County Wood Utilization 
and Fire Risk Reduction Project. In 2003 I was lead author of a study 
on management options on the Biscuit Fire that originated with a 
request by the Douglas County Commissioners, concerned about the large 
wildfires that occurred in southwest Oregon during 2002.
    Wildfires that burn with uncharacteristic intensity can affect the 
natural recovery of conifer-dominated forests by elimination of conifer 
seed sources, creation of conditions for dominance by competing 
vegetation, and lock in cycles of fire and shrubs and hardwoods for 
long periods. There is a short window of time in which cost efficient 
management actions can be taken if rapid restoration of conifer-
dominated forest is desired.
    I am going to discuss the rapid restoration of conifer-dominated 
forests in fire-prone landscapes after uncharacteristically intense 
wildfire in order to describe the significant ecological and economic 
costs that can result from management delays in decision-making and 
implementation. I use the southwest Oregon Biscuit Fire of 2002 as a 
case study.
    During the summer of 2002, the Biscuit Fire, the largest fire in 
recorded Oregon history, burned more than 400,000 acres over 54 days 
and cost more than $150 million in direct suppression costs. Most of 
this land was being managed for wilderness and old forest conditions to 
provide habitat for species that live in older conifer-dominated 
forests and for recreation and watershed protection purposes.
    The seven points I will make are:
    1)  natural recovery of large, intensively burned areas of forest 
in southwest Oregon to mature conifer-dominated forest is typically 
slow and uncertain
    2)  under natural recovery, most or all the standing fire-killed 
trees will be on the ground many years before the new conifer forest 
can produce green trees and future snags to replace those now used by 
snag dependent wildlife
    3)  well-established silvicultural techniques can hasten conifer 
forest regrowth
    4)  conifer regeneration costs rise rapidly as a function of time 
since wildfire
    5)  standing fire-killed trees contribute to future fire risk
    6)  salvage value of standing fire-killed trees declines rapidly
    7)  the window of opportunity to rapidly restore conifer forests is 
closing
Natural Recovery
    Historically, large areas of conifer forests that burned light to 
moderate in intensity reseeded naturally. Where seed is readily 
available and site conditions are conducive to Douglas-fir, the most 
common conifer in the Biscuit area, natural stands begin with seedfall 
of 100,000 or more seeds per acre yielding more than 1000 seedlings per 
acre. Over time, through inter-tree competition, the new forests self-
thin themselves to often fewer than 100 trees per acre by age 160. Seed 
crops occur naturally at irregular intervals. Most conifer seeds are 
wind dispersed and the majority fall within one tree height; 90% within 
two tree heights with some seeds being found at distances of 800 feet 
or greater. Given that a seed falls, the chance of it developing into a 
successful seedling is less than one in a hundred.
    On drier sites, with long distances to seed trees, naturally-seeded 
areas may develop slowly and restocking by conifers may require 100 
years or more. Thus, natural recovery to the pre-fire conifer-dominated 
forest can be a slow process. Although Douglas-fir is the most common 
conifer in the Biscuit fire area, other conifers also occur. Three 
important conifers in the area, Port-Orford-Cedar, Sugar Pine and 
Western White Pine, are threatened by non-native diseases. Disease 
resistant strains have been developed. Nature, alone, will not 
guarantee the long-term survival of these species without planting 
disease resistant stock.
Snag Dependent Wildlife
    Green conifers are now absent from large areas burned by the 
Biscuit Fire and snags are abundant for those wildlife species that 
utilize snags. On these areas, most or all of the fire-killed trees 
will be on the ground many years before green conifers return under 
natural recovery. Planting conifers followed by vegetation control 
could reduce the large conifer tree recovery time by half, thus 
hastening the return of green trees and replacement snags before the 
current snags have fallen.
    There are tradeoffs between leaving many large fire-killed trees 
for wildlife and the impact that might have on conifer regrowth and 
future fire risk. There is no question the large dead trees are the 
most significant for snag-dependent wildlife and no question that they 
pose future risk from lightening strikes. The tradeoff entails how many 
to leave standing, where and how decisions for snag retention will both 
serve wildlife and reduce future fire and insect risks. More than half 
of the intensely burned area is in Wilderness and will be left with 
high snag densities and natural recovery regardless of management 
decisions in the other burned areas.
Hastening Conifer Forest Regrowth
    By far, the most significant problem facing young conifer 
regeneration in the southwest Oregon region is competing vegetation. 
Following wildfire, shrubs and hardwoods reoccupy sites rapidly from 
seed stored in the soil and scarified by the fire and from sprouting. 
At lower elevations, grass can aggressively reoccupy sites. All three 
are vigorous competitors to conifers. Grasses and shrubs also provide 
habitat for birds and seed-eating rodents. Much of the conifer-
dominated forest that burned in the Biscuit fire was established during 
the waning years of the Little Ice Age. Current and likely future 
climates are more favorable to root-sprouting shrubs and hardwoods than 
when the burned forests originated. With limited amounts of soil 
moisture, competition from woody and herbaceous vegetation greatly 
reduces the survival and growth of conifers.
    At the request of community leaders in the late 1970's, a major 
cooperative research and technology transfer effort called the Forestry 
Intensified Research Program (FIR) was initiated by Oregon State 
University and USDA Forest Pacific Northwest Research Station, with 
strong support from Senator Mark Hatfield and Congressman Les AuCoin. 
The ensuing basic and applied research greatly expanded our knowledge 
of forest ecosystems in the region and identified silvicultural 
practices for successful reforestation after wildfire or timber 
harvests. Some experimental treatments have now been continuously 
monitored for 23 years. It has been demonstrated that rapid planting of 
conifers after wildfire can have more than a 90% success rate, and with 
control of competing vegetation, it is possible to double conifer 
diameter growth rates and to increase height growth. This can 
substantially reduce the time necessary to regrow a conifer-dominated 
forest with large tree characteristics, which is precisely the forest 
conditions called for in the Northwest Forest Plan for much of the 
burned area. A tree's resistance to death by fire is related strongly 
to its diameter and height to the live crown. The more rapid the height 
growth, and the larger its diameter, the greater its chance of 
survival.
    In the absence of human assistance, we estimate that the larger 
conifer trees (>18 inches diameter) that provide much of the character 
of mature conifer forest and most of the habitat for old-growth-
dependent wildlife will take much longer to grow. On many sites, it 
will take 50 years or more to supplement the surviving larger trees, 
even with prompt regeneration, and up to 100 years to approach pre-fire 
conditions for 18-inch or larger trees. Without planting and subsequent 
shrub control, it could take more than 100 years to even re-establish 
conifer forests that will be anything like the pre-fire forests.
Conifer Regeneration Costs
    As an outgrowth of the FIR Program and related regeneration studies 
in the Northwest, OSU researchers have estimated (1) the initial cost 
of a variety of regeneration options, (2) the declining probability of 
success related to time, and (3) the differences of success on north- 
versus south-facing slopes. Immediately following intense fires, 
conifer forests can be re-established at one-quarter to one-eighth the 
cost that will be required if planting is delayed five years. Three 
important conclusions can be drawn from examining regeneration costs: 
(1) the most cost-efficient method of establishing conifers is 
immediate regeneration; (2) planting delays beyond the first three 
years (or less with aggressive sprouting) can substantially increase 
costs through poor survival and high restocking costs if competition 
from weeds and shrubs is not adequately addressed; (3) when delays are 
unavoidable, herbicides for site preparation and release will 
dramatically reduce costs of establishment over other reforestation 
options. The use of herbicides could substantially reduce the out-year 
establishment costs and increase forest restoration success.
Future Fire Risk
    The adage ``lightning never strikes twice in the same place'' is 
not true. Lightning frequency tends to be higher in certain areas, such 
as southwestern Oregon. Although we do not know when fires will start, 
we do know what conditions create fire hazards. These conditions 
include (1) availability of snags that are easily ignited; (2) forest 
litter (fine fuels) and shrubs that provide opportunities for rapid 
fire spread; (3) down wood derived from decaying dead trees that 
contributes to high-intensity fires; (4) tree canopies that extend to 
the ground, providing fuel ladders to the tree crowns; (5) dense forest 
canopies that provide conditions for spread of crown fire; (6) lack of 
access that can delay or prevent suppression, and (7) falling snags 
that create danger for firefighters. All of these contribute greatly to 
the difficulty in developing control strategies for new fires.
    We estimate there is an average of more than 160 fire-killed trees 
per acre in the Biscuit fire area. These trees will fall over time and 
create small and large logs that, while providing habitat for many 
different species and slowly returning organic matter to soils, also 
will fuel the intensity of future fires. We estimate that high numbers 
of snags will persist for several decades and that down wood 
accumulations on the forest floor will grow as snags fall and/or 
deteriorate, reaching maximum levels in 40 years and remaining at those 
levels for several decades. The numbers of snags and amount of down 
wood will be higher in more severely burned areas and lower in less 
severely burned areas, but are indicative of the trend. Significant 
concentrations of dead and dying trees in the Biscuit area will leave 
the landscape prone to large, intense wildfires for at least 60 years 
into the future, further jeopardizing any potential for the forest to 
return to mature conifer dominated forest.
Salvage Value
    If decisions are made to assist nature in forest recovery and 
reduce future fire and insect risks, actions could involve the removal 
of some fire-killed and fire-stressed trees. This is often referred to 
as salvage logging. We estimate that timber containing several billion 
board feet was killed in the Biscuit Fire. Much of the timber in this 
condition that is located outside of designated Wilderness is 
accessible and could provide funds to offset restoration costs. Past 
experience indicates that the recovery value of fire-killed timber will 
decrease as trees deteriorate from checking, fungal decay, and 
woodborer activity. Based on studies throughout the West, we estimate 
that approximately 22% of the fire-killed volume that existed 
immediately after the fire will be lost during the first year and by 
the fifth year, only volume in the lower logs of the larger trees will 
have economic value. By the summer of 2004, we estimate that the 
economic loss due to timber deterioration will already be in the tens 
of millions of dollars. Delay results in lost opportunities to provide 
materials for society, employment, and to provide funds for 
restoration. Often by the time decisions are made and implemented, only 
the largest trees of the most commercially valuable species have 
remaining economic value. More rapid decision making and implementation 
could provide a win-win situation where smaller trees could be salvaged 
while they have economic value while larger trees are left on site for 
other values. Consideration might be given to a national policy on 
post-fire restoration so that agencies can move ahead quickly and have 
the opportunity to utilize the smaller trees that the industry is now 
geared for and reduce the debate over the large trees.
    In areas of limited access such as the Biscuit fire area, 
helicopter logging provides an opportunity to quickly remove fire-
killed timber with little soil disturbance, and it can be done without 
the construction of any new roads, thus keeping roadless areas, 
roadless. Oregon is home to the majority of helicopter logging capacity 
in North America and the capacity exists to remove more than 2 million 
board feet per day. Helicopters were used to salvage significant 
volumes in the 1987 Silver Fire (within the Biscuit fire area) and the 
Rodeo-Chediski fire (White Mountain Apache Reservation, Arizona, 2002). 
Logs from fire-killed trees at the Slater Creek Salvage Sale (Boise 
National Forest, Idaho, 1993) were flown as far as 4 miles. Eight years 
of monitoring after the Silver Fire salvage showed no adverse effects 
on water quality.
Time is Not Neutral
    Typical NEPA and sale preparation procedures now take up to 2 
years. For green timber sales, this time investment may be reasonable 
given the costs and benefits of the proposed actions. After wildfire, 
however, the costs of delay are extreme. Green timber may increase 2%-
6% in volume and value over the 2-year plan preparation and decision- 
making period. But, after a wildfire, fire-killed trees will lose more 
than 40% of their value during the same period, and delays in 
subsequent forest regeneration will further increase costs (Figure 1).
    The Record of Decision for the Biscuit is now out, almost exactly 
two years after the first trees burned. The federal agencies propose to 
reforest 31,000 acres (about 7% of the burned area) and salvage 372 
million board feet from 19,000 acres (about 4% of the burned area), 
primarily by helicopter. The effectiveness of these efforts now depends 
upon the speed of agency implementation, whether wood products firms 
will take the risk of investing in fire-killed timber entering its 
third summer, and whether groups opposed to reforestation and 
utilization of a small portion of the trees killed by the fire try to 
obstruct agency action.
    There is evidence that agencies have begun to react to the urgency 
for restoration after wildfire. On June 28, 2003 the 21,000 Davis Fire 
started on the Deschutes National Forest in eastern Oregon. The Draft 
EIS was issued in May, 2004, less than one year after the first trees 
burned. The agency rationale for the aggressive timeline--(1) rapid 
restoration of late successional reserves and (2) more timely salvage 
to finance restoration and to reduce future fire risk.
[GRAPHIC] [TIFF OMITTED] T4996.007

                                 ______
                                 
    Mr. Walden. Thank you, Mr. Sessions. we appreciate your 
work and your testimony today.
    Now I would like to welcome Mr. Chips Barry from the Denver 
Water Board. We appreciate having you back before our 
Committee.

          STATEMENT OF HAMLET J. BARRY, III, MANAGER, 
                       DENVER WATER BOARD

    Mr. Barry. Mr. Chairman, thank you very much. I am pleased 
to be here again. I am Chips Barry. I am the manager of the 
Denver Water Department.
    It has been many years since Teddy Roosevelt was here to 
testify, but I am going to be Teddy Roosevelt for exactly 30 
seconds, and give you some enlightenment from Teddy, which is 
in fact relevant to these proceedings. Teddy said, ``When wood 
and water are endangered, the political differences between men 
of power are dissolved.'' Point one.
    Point two: ``The water supply itself depends upon the 
forest. In the arid region it is water, not land, which 
measures production.'' Both of those things come from my 
message to Congress in 1902, and I thought you should here 
about them now before I revert to my later self.
    I do think Teddy Roosevelt is extremely relevant to these 
discussions and this debate about what we do about forests, so 
I just had to do my little piece there for you.
    Now let me talk a little bit about Denver Water and what we 
have done. Ryan has got some slides that he is going to run 
through, but the purpose is for me to explain a little bit 
about what happened to the watershed that serves Denver Water. 
We have had two big fires, one in 1996 called the Buffalo Creek 
Fire. It burned 12,000 acres. We thought it was a big deal at 
the time. What happened to us after that was within a period of 
about 8 weeks. We got two inches of rain on top of the burned 
area. Two inches of rain then produced 400,000 cubic yards of 
sediment into one of our major reservoirs. 400,000 cubic yards 
was more sediment then we had received naturally in the 
preceding 12 years.
    The picture at the top right, which you cannot see, but you 
may have copies of, shows you that after the Buffalo Creek Fire 
the surface of our reservoir was covered with porta-potties, 
driftwood, propane tanks, campaign yard signs, all kinds of 
stuff. It was an enormous problem, and the sediment beneath 
that debris was even a bigger problem. That was 1996. We did 
not have any time to do any rehabilitation, but we certainly 
learned a lesson. What we learned was when you have a big fire, 
you had better get in and move as quickly as you can.
    In 2002, we had the Hayman Fire. Reference has been made in 
front of this Committee today, and I think I testified to your 
Committee in California about the Hayman Fire. The Hayman Fire 
burned 134,000 acres of land. There is the Hayman Fire. You can 
see in the middle of that slide is a black square, and in the 
middle of that square is Cheesman Reservoir. The intensely 
burned area was right around our reservoir. That is 8,000 acres 
of our land and 134,000 acres of the Forest Service land.
    Having learned our lesson from the Buffalo Creek Fire, 
immediately after the Hayman Fire I had 50 people working in 
the forest for 5 days a week for more than 40 weeks, and we did 
everything that it is possible to do to rehabilitate a burned 
area because we feared again we might have a rainstorm of 2 or 
3 inches, which could bring us as much as 2 million, 2 million 
cubic yards of sediment into that reservoir.
    Now, fortunately, that fire was a year and a half ago or 
almost 2 years ago now, and we have not had a rainstorm of that 
magnitude. We can therefore say we have had reasonably good 
reclamation so far.
    This illustrates an area around that reservoir where the 
area marked in yellow is where we had treated the area before 
the fire to do the kind of forest management that you need to 
do. We cleared the brush. We thinned the trees, no clear-
cutting. Where that occurred, we did not have fire damage. We 
did not lose our structures around the reservoir, and where we 
had done forest treatment, we in fact avoided the major damage. 
Where we had not gotten to that yet, we had major damage.
    We can go to the next slide. Here is what the area that 
burned looks like today. I cannot say it is completely 
reclaimed, but you can see we have reasonably good growth of 
grass. The areas has been somewhat stabilized. I want to now 
simply take you through basically what Denver Water did.
    We put up 2,000 straw bale dams, 50 log sediment dams at a 
cost of $600,000. We did tree contouring and directional 
filling to the tune of $20,000. We did hydro seeding and hydro 
mulching to the tune of $200,000. We put on an aerial 
application of polyacrylamides. We hydro-axed--and a hydro-axe 
is a thing that looks like--it is the functional equivalent of 
a pencil sharpener that you put at the top of a standing burned 
tree and grind into mulch in about 30 seconds. It is a 
remarkable machine. It really does look like putting a tree in 
a pencil sharpener. We spent $900,000 doing that, and we hydro-
axed 400,000 trees in a space of about 2 months. It turns a 
tree to mulch and it is extremely helpful in getting 
revegetation started. We did salvage timbering on 1,700 acres. 
We salvaged 10 million board feet of lumber. We did that at no 
cost. We didn't make any money, but it didn't cost us anything 
to have it done. The people who came in and did it said they 
would do it for the value of the salvaged timber. We were not 
caught up in any of the forest service procedural delays, so we 
could do that almost immediately. We aerial-seeded 7,000 acres 
and we are now planting 25,000 pine seedlings a year for the 
next 10 years.
    That is sort of the sum total of what we have done. We 
spent about 4-1/2 million dollars to rehabilitate our 8,000 
acres. On the whole we have probably out spent the Forest 
Service 10 to 1 on an acre-for-acre basis. We are kind of the 
poster child for what you do after a fire, but I do have to 
tell you, until we get a 3-inch rain on top of the land we have 
rehabilitated, I cannot tell you that everything we did worked. 
I can say that we have worked very hard to make this as 
successful as we can.
    That is a list of what we did. We built these sediment 
trash racks. We did 60 of those to catch the sediment. Then we 
got to go in and clean them out.
    Another one, that just shows the straw bale applications. 
That is contour filling where we cut the trees and laid them 
horizontally across the slope. That is a completed series of 
treatments, where you see seeding, hydro-axe and mulching and 
contour filling all together on the ground.
    One more. One last thing we did, we have built two enormous 
sediment traps, $850,000 apiece. They are in essence a leaky 
dam. It is interesting to go to a water utility that I run and 
ask your engineers to build a leaky dam. They had a little 
problem with the concept at first, but the concept is to let 
the water through and catch the sediment. We have built two of 
those on the major small tributaries coming into Cheesman 
Reservoir. They are successful. We are catching an enormous 
amount of sediment in those even from the small rainstorms.
    That is sort of my sum total of what we have done. We did 
not rely on the Forest Service for help. We would get some 
advice from them from time to time, but frankly, their problem 
was much bigger than ours, and their budget was comparatively 
much smaller. So if I bring a message, it is the locals know 
what to do. If the Feds could help, that is terrific. We got in 
there and did everything we could do. We have been reasonably 
successful so far.
    With that, I can see my light is on and I have exceeded by 
time either as me or as Teddy.
    [The prepared statement of Mr. Barry follows:]

                   Statement of Hamlet J. Barry Iii, 
               Manager of Denver Water, Denver, Colorado

    Mr. Chairman and Members of the Committee:
    Thank you for allowing me to appear before you to address the 
important issues of forest health and the attendant protection of 
municipal water supply. The Denver Water Board is a municipal 
corporation that supplies water to almost 1.2 million people: that is 
one of every four people who live in Colorado. Denver Water's supply is 
almost entirely dependent on water generated within the boundaries of 
watersheds located on Forest Service and other public lands. Denver's 
water system gathers diffuse surface flows originating on public 
watersheds and moves the water to treatment plants and drinking water 
systems located as much as 80 miles away from the water's origin. [See 
Exhibit ``A'']
    Denver Water has extensive experience in responding to and trying 
to prevent wildland fires in our watershed, while continuing service to 
our broad customer base. Since 1996 Denver Water has been the victim of 
six fires in its Upper South Platte watershed, a major water supply and 
delivery system for Denver Water. [See Exhibit ``B''] The effects of 
these fires on Denver's system have varied, but the overall result is 
one of vitiated water quality and diminished reservoir capacity due to 
large amounts of fire-related debris and sediment filling our 
reservoirs. For example, approximately twenty miles of the South Platte 
River is subject to fire erosion that has resulted in severely reduced 
water quality, high stream turbidity, and diminished reservoir capacity 
due to foreign debris caused by the fire. To date, the costs of 
responding to the fire damage has been almost $8,000,000 and continues 
to grow. [See Exhibit ``C'']
    As a result of dealing with forest fire issues, Denver Water 
provides the following information that may be useful in your decisions 
regarding the appropriate level of federal response, including 
appropriations, to assist in recovering fire-degraded watersheds as 
well as establishing an effective fire prevention program:
    1. Fuel reduction can control or limit forest fires. Select cutting 
and fuel reduction limited damage to Denver Water's property during the 
2002 Hayman Fire. The fire began during times of drought, and was 
fueled by an overgrown, under-managed forest. The fire burned for six 
weeks and consumed 138,000 acres in Denver's South Platte watershed. 
[See Exhibit ``D''] The Hayman fire completely consumed trees on 
acreage surrounding Denver Water's Cheesman Reservoir. Denver Water was 
in the process of thinning our trees on its own 8,000 acres prior to 
the Hayman Fire.
    In the areas where fire-prevention treatment was completed, the 
fire dropped from the tops of the trees to the ground, and fire 
intensity was diminished. Four caretaker houses, an office and 
maintenance facilities survived the fire. Of the 8,000 acres owned by 
Denver Water at the Cheesman site, everything burned to extinction 
except for the treated areas. [See Exhibit ``E'']
    2. Ongoing water quality and reservoir clean-up issues continue 
long after a fire is contained. Forest fires themselves are only the 
initial onslaught on the integrity of Denver Water's system. Denver 
Water's facilities and its water quality have suffered from the Upper 
South Platte Fires. For example, the Buffalo Creek Fire of 1996, dumped 
400,000 cubic yards of sediment in Denver's terminal Strontia Spring 
Reservoir. This debris meant that after the fire and related flooding, 
Strontia Springs Reservoir received as much fire debris and sediment as 
had accumulated in the prior eleven years. [See Exhibit ``F''] For this 
relatively small fire the water quality and clean-up costs were nearly 
a million dollars, with an estimated future cost of 15 to 20 million 
dollars to dredge this reservoir. It is estimated the after effects of 
erosion will negatively affect water quality at a cost of $250,000 
annually for the next ten years.
    Six years later, the Hayman fire dealt another blow to the Denver 
Water delivery system. As a result of the Hayman fire alone, it is 
estimated that more than 2,000,000 cubic yards of debris and sediment 
could erode into Denver's Cheesman and Strontia Springs Reservoir.
    3. Restoring a watershed destroyed by fire is an expensive, 
continuous, and long-term process. Since July of last year, the 
following restorative efforts have occurred on the Cheesman Reservoir 
property:
    <bullet>  To stabilize soils and reduce erosion Denver Water crews 
and aerial contractors have applied more than 210,000 pounds of grass 
seed over 7,000 acres. [See Exhibit ``G'']
    <bullet>  2,000 temporary sediment dams have been created by 
placing nearly 30,000 straw bales in gullies to slow the flow of debris 
carried in rain runoff. Sediment dams are also created by contour 
felling of dead trees which is the process of cutting and aligning 
trees perpendicular to the slopes to prevent erosion.
    <bullet>  Mulching of standing dead trees helps break up 
hydrophobic soils and returns organic materials to the soil, replacing 
those destroyed in the fire. This was done in areas that were already 
seeded, providing mulch over the seed as well as removing unsightly 
burned trees.
    <bullet>  Salvage logging was very effective combined with the 
aerial seeding. Under private contract, 1,700 acres of burned land were 
logged by timber salvage companies. About 10 million board feet of 
lumber were salvaged. [See Exhibit ``H'']
    <bullet>  To reforest the burned area on its property, Denver Water 
planted 25,000 ponderosa pine seedlings for each of the past two years 
and plans to plant the same amount annually for the next eight years.
    <bullet>  Aerial applied PAM (polyacrylamide) treatment was used to 
temporarily bind the soil and thereby reduce erosion. Use of PAM 
continues to be evaluated.
    <bullet>  Denver water spent $1,500,000 on two sediment dams in 
order to prevent filling Cheesman Reservoir with the large amount of 
debris and sediment from burned areas on federal lands. [See Exhibit 
``I''] The Goose Creek sediment dam contains about 14,000 tons of rock. 
The Turkey Creek sediment dam will be 140 feel long with a 40 foot high 
span. Both sediment dams are designed to be water permeable.
    4. Costs of remediation to protect fire ravaged watersheds are 
high, but the aforementioned techniques are proven to control erosion 
and return the landscape to a native forested condition over a long 
period of time. The costs of the Denver Water response to the Hayman 
fire at Cheesman have totaled nearly $6,500,000. Federal help from the 
National Resources Conservation Service and the EPA has taken the form 
of technical advice and reimbursement of $2,490,000. Of course, future 
dredging costs have not been estimated, but fire debris and sediment 
have filled reservoirs, diminished storage capacity, and shortened 
their estimated useful life. As mentioned before, the costs of the 
Buffalo Creek fire are over $1,000,000 with anticipated reservoir and 
dredging costs of $15,000,000 to $20,000,000. Again the need for 
reservoir dredging has been accelerated by the fire-caused erosion 
filling the reservoir.
    It is important for the federal government to stabilize their own 
land, not only to reduce the erosion that is fouling the water for 
Denver and other municipal suppliers, but also to assure a restoration 
of the forest environment. While expenditures are always of concern to 
a government, the damage caused on federal land has created a dangerous 
condition and endangered the public water supply that is an integral 
part of forest management.
    5. Fire conditions on federal lands have not been sufficiently 
remediated, so that adverse impacts on municipal watersheds will 
continue and wildfire danger will remain high. In my opinion, Denver 
Water's experiences with the forest fires in the Upper South Platte can 
serve as a baseline for how to respond to large-scale wild fire 
watershed damage involving federal and private lands.
    First, potential damage from forest fire can be significantly 
reduced by careful, deliberate forest management. Passage of the 
Healthy Forest legislation last year demonstrates Congress is aware of 
the activities that need to occur to protect watersheds from 
irreparable harm. It is useless, and perhaps unconscionable, to 
legislate a well-defined forest protection policy and fail to fund it 
adequately. There is too much fuel load in our forests, and these 
forests need to be treated and thinned regularly and scientifically.
    Second, sediment control measures, most of them small in scale, 
have helped to control fire caused erosion, but have not been severely 
tested by a large rain event. I am hopeful, but not particularly 
optimistic that we will succeed in preventing two million cubic yards 
of decomposed granite from moving downhill into our waterways.
    Third, the federal government agencies, namely the Natural 
Resources Conservation Service, the United States Forest Service, and 
the Bureau of Land Management are occasionally helpful and usually 
sympathetic. However, their budgets are limited and the acreage they 
deal with is vast compared with our own. Following the Hayman fire, we 
out-spent these agencies nearly ten to one on an acre-for-acre basis 
comparing our land to theirs. The point is that to date municipal 
systems injured by a forest policy that failed to protect municipal 
watersheds cannot depend on the Federal Government to do a great deal 
for you no matter how big your problem is and no matter how much their 
actions contributed to it.
    Fourth, Denver Water remains concerned about over-grown forests 
both publicly and privately owned. The ``red zone'' is the urban/wild 
land interface west of Denver over the entire Front Range. We have not 
discovered the right mixture of carrot and stick that will motivate 
private or federal landowners to treat and thin the forest on their 
property to avoid catastrophic wildfire.
    The above observations lead clearly to the conclusion that the 
local government agencies know as much or more than anyone about the 
issues of watershed/wildfire and what will help alleviate future water 
quality, sediment and erosion problems. Based on our experience, any 
combination of these measures will work, but we need help from the 
federal agencies to solve problems on their own lands and to protect 
the watersheds that serve the forest as well as the people of Colorado. 
Congress has a blueprint in the Healthy Forest Act, now it needs to 
provide the money so restoration and wise forest management can occur 
on all federal land. I urge your support of the requests for funds to 
carry out the Healthy Forest mandates.
[GRAPHIC] [TIFF OMITTED] T4996.001

[GRAPHIC] [TIFF OMITTED] T4996.002

[GRAPHIC] [TIFF OMITTED] T4996.003

[GRAPHIC] [TIFF OMITTED] T4996.004

[GRAPHIC] [TIFF OMITTED] T4996.005

[GRAPHIC] [TIFF OMITTED] T4996.006

[GRAPHIC] [TIFF OMITTED] T4996.008

[GRAPHIC] [TIFF OMITTED] T4996.009

                                 ______
                                 
    Mr. Walden. We will forgive both. Thank you for your 
testimony.
    Now, I would like to welcome Councilor Hartzell from 
Ashland, Oregon. We look forward to your testimony. Thanks for 
being here.

  STATEMENT OF CATE HARTZELL, ASHLAND CITY COUNCILOR, CITY OF 
    ASHLAND, OREGON, AND PROGRAM COORDINATOR, COLLABORATIVE 
                        LEARNING CIRCLE

    Ms. Hartzell. Thank you, Representative Walden. I 
appreciate the time that you have given both this morning to me 
personally and to this hearing, as well as your staff and what 
they have done to contribute to it.
    I am the City Councilor in Ashland, Southern Oregon, just 
over the State of California. I am also Program Director of 
Collaborative Learning Center. It is a regional network in 
Northern California and Southern Oregon of community based 
groups working on watershed restoration, small diameter 
hardwood utilization. I have done that for over a decade, both 
in my local community as well as regionally and nationally.
    Today I want to touch upon briefly the challenges and 
progress we have made in that regard, the current situation, as 
some people in the communities that I live view this topic, and 
also some suggestions that we have learned from you for moving 
forward in the midst of the decade that we have lived through 
that has had social and economic change in it.
    What many of us in the community have done is to look for 
the common ground and try as best we can to find areas where we 
can work there that would produce some experience that was 
successful. We have also advocated for decisions that integrate 
the different issues and perspectives so that, again, we can 
find more common ground. We have begun to work in the areas of 
agreement.
    One of those areas that I want to highlight today is 
something that you as Congress members have been integral in 
providing for us, and that is the National Fire Plan. It has 
been extremely successful in my part. Having watched what we 
have done for 10 years and come to ask for when we come to 
Washington, D.C., this is a significant part of the answer.
    The elements of success in that National Fire Plan, from my 
perspective, are severalfold. One, that it is far less 
expensive than to do the kind of treatments that we are 
highlighting in today's hearing. To get in before the fire 
comes is far less damaging on the landscape and far less 
expensive in tax dollars.
    We are also finding that it produces local and consistent 
jobs; produces a steady flow of small and medium-size timber 
which we have begun to do utilization and biomass on; and it 
forms really critical partnerships in being able to treat both 
the private and the public land, both of which are essential in 
protecting the forests and community infrastructure.
    Today's topic. I am here to bring, or to perhaps highlight 
some of the comments that have been made earlier about the 
controversial nature both of post-fire restoration as well as 
post-fire salvage logging. Socially, from my perspective or 
from the perspective of many of the people who live in the area 
where I am from, is that it is reminiscent of the more 
traditional industrial or agricultural model of forestry, and 
that raised concerns that we dealt with in the '90s and are 
trying to grow through. Also the concern about the protections, 
both in public participation as well as ecological protections 
that we are seeing at least in our area of the Northwest.
    Scientifically there is uncertainty, not only uncertainty, 
but disagreement. Disagreement involves definition of what our 
end goal is. What are the goals that we are trying to achieve 
and what are the characteristics of the forests that we are 
trying to restore and rehabilitate? Also disagreement about the 
characterization of the impact of the fire. There is 
disagreement and certainly uncertainty about the 
appropriateness and the success of the traditional intervention 
strategies. There is disagreement about the impact or the 
theory of reburn, and again I think, as I mentioned in my 
testimony, we are touching an elephant here, and I would not 
invalidate the experience of people who would come from any 
part of the country and talk about their experience. There are 
distinct differences because they are distinct ecosystems, but 
there is differences there. And also the unintended 
consequences of the traditional strategies, the leaving of 
slash, the use of fertilizers and herbicides, weeds is 
certainly an issue that we are all paying attention to.
    So with those levels of uncertainty and social disagreement 
around where to go, I wanted to bring forward some of my 
experiences of myself and my colleagues, and I want to talk 
briefly about them in the context of what we have done locally.
    Ashland owns land in our municipal watershed. We have, 
through official commissions that the city has established and 
supported, just completed Phase 1 of a forest health project up 
in our watershed. What we did there was very important, and I 
want to share a couple of those lessons. One was that we phased 
it. We had areas lower down in our watershed where it was very 
important that we get up because of drought and overstocking, 
and thin out. We started doing below 7-inch thinning back in 
'95 with the use of our water funds. So we are familiar with 
some of the work that has been done up there already, but we 
wanted to go in and do a commercial sale. We also had an area a 
little bit higher up with old growth in it. The Commission 
decided that because of the diverse range of perspective in our 
community, we were going to start where we knew we would be 
successful. We did that. We just finished it. We were at cost. 
We wound up paying $500, but that is not bad considering the 
number of acres that we treated, and we did helicopter log.
    We collaborated. The fire chief is very frequently 
reminding me to slow down, because he has realized how 
carefully he has to work in the community and not to get ahead 
of himself. We are very interested in and invested in multi-
party monitoring, bringing multiple stakeholders to the table, 
asking the questions and going out collectively to answer some 
of those questions. We do not have the constraints of NEPA, and 
yet we pay very careful attention to the involvement of the 
public and even more so investment in the analysis up in the 
watershed. We have a forester who may as well be on retainer, 
knows a great deal about our watershed, about the private and 
the public, and this commission charged him with going up and 
getting the information very site specifically.
    The choice of where to work, I mentioned before we stress 
the--instead of the old growth. The goal was, in our project, 
forest health, and in order to move this forward in our 
community we needed to stay on point guard with that, and I 
believe that we did. The emphasis also was on working with our 
local workforce and our local businesses. That was very 
important to us. One of the things that does not come directly 
out of this, but that I mention in my testimony that I think is 
also important, is that as we talk about where do we spend that 
precious one dollar of the taxpayer and up from there, we have 
to make sure that we are spending it in the most cost-effective 
way that we can, and I think it is important that we analyze 
all the costs, not only what we are getting in revenue, but 
what we are spending to do that.
    These principles, I think, are very important for us and 
perhaps for you in guidance. We have HFRA status as a 
watershed. We are still learning what that means. The rest of 
the time in D.C. I am going to try to go out and hunt down not 
only what it means but where the money might come from because 
we have identified cooperatively in our community where the 
next round of Federal work will be. We are developing a 
community wildfire protection plan alternative. We have it 
already. We are refining it right now. The importance of that 
is that we are bringing the principles that we learned working 
with our municipal land into the Federal land, and we believe 
it is possible and very important to do so.
    What I would stress to you is that we built social capacity 
and we are doing what you asked us to do in allocating the 
money for the National Fire Plan. It is very important to us 
that you make very careful decisions about how to move forward 
in the post-fire area because of Biscuit. Biscuit, I brought 
newspapers. I will not bore you with them, but they are 
starting to show the headlines of protests and conflict and 
trying to mediate that conflict. The risk of moving in a 
direction that takes us backwards instead of forward, while we 
are really making progress on the early treatment for at least 
the area, the Rogue Valley, that I come from, is very, very 
critical, and I appreciate the interest that you are showing in 
doing it carefully, and we are available.
    I would also offer that we are also open for tours and to 
become a good example of how it can be done with less conflict 
and product on the ground.
    Thank you very much for allowing me this time to speak.
    [The prepared statement of Ms. Hartzell follows:]

 Statement of Cate Hartzell, Ashland City Councilor, City of Ashland, 
     Oregon, and Program Coordinator, Collaborative Learning Circle

    Thank you for this opportunity to offer my perspective.
    I am a City Councilor in Ashland, Oregon, a town of 20,000 in 
southwestern Oregon. Our residents are actively involved in caring for 
our municipal watershed. We began thinning small trees on City land in 
our municipal watershed in 1995. We developed an Interface Management 
Plan for private lands and we partner with the U.S. Forest Service in 
the stewardship of federal lands. We are a Healthy Forest Restoration 
Act project and are currently updating a Community Wildfire Protection 
Plan. We have had fires ``just over the ridge'' the past two summers.
    I also coordinate the Collaborative Learning Circle, a ten-year old 
regional network of community-based organizations in southern Oregon, 
northern California. Our member organizations responded to declining 
conditions in their communities and forests by creating training 
programs and jobs doing watershed restoration, hardwood and small 
diameter utilization, monitoring, and non-timber forest products.
    My testimony addresses issues related to fire, as opposed to other 
catastrophic events; it is the disturbance I am most familiar with.
    In the last ten years, our region has experienced a major social, 
economic and political transition. The demographics and industries have 
changed; the recreational value of the land is causing people to look 
differently at wild places. Much less of our economy is dedicated to 
extraction. Most mills closed or retooled for smaller trees.
    Congress both stimulated and invested in this transition. Through 
the Northwest Forest Plan and the 1.2 billion dollars associated with 
the Northwest Economic Adjustment Initiative, a long-term commitment to 
fund the National Fire Plan, and the initial efforts to support the 
Healthy Forests Restoration Act, Congress has demonstrated its interest 
in a framework built on broad policy goals and common ground. These 
programs responded to the need to transcend the ``boom to bust'' cycles 
that communities faced and create continuity in management that's based 
on trust and good science.
    Over the last ten years, our region adjusted to new policies, 
weathered controversies, cooperated with former adversaries on 
projects, lobbied for and implemented cost-share programs to leverage 
the public investment on private lands, and created businesses and 
training to implement new forestry practices. We painstakingly built 
delicate social agreements to move from conflict to collaboration.
    Of course, there are issues that will not be resolved, despite the 
best intentions. Hopefully we will find compromises that move us 
forward, but the differences in the core values behind the debate 
change slowly, if at all. Part of our challenge as decision makers is 
to cleave out new decision space that involves integrative decision 
making. We have an opportunity for innovation that moves beyond 
supporting one interest group over another, instead exploring genuine 
work towards multi-stakeholder-supported and integrative decision 
making.
    I believe that the questions you are exploring today relative to 
restoration practices on damaged forests fall into this 
``irresolvable'' category. In my region, and I suspect the country, 
there is not agreement on whether there's an ecological imperative for 
post-fire restoration, or what ``restoration'' means or looks like on 
the landscape There is broad public support for post-fire restoration. 
In fact, the National Fire Plan and the 10-Year Implementation Plan for 
the Western Governors Association's Comprehensive Strategy identify 
``restoring fire-adapted ecosystems'' as one of four major goals. 
Questions about post-fire restoration revolve around what it should 
look like and how it should be done, but there is broad support for 
goals such as ensuring soils stability, minimizing impacts on 
watersheds, minimizing the impacts of invasive species. These goals 
focus on restoring the health of the land, or the functioning of these 
forest ecosystems.
    After a wildfire, managers and legislators are pressured to act 
fast for a number of reasons. Using the trees to fill industry's 
resource need and spending the revenue to offset the cost of 
restoration has some logic.
    Salvage logging is not the same as restoration, although logging 
might be part of some restoration strategies. Salvage logging, however, 
focuses on capturing the economic value of trees damaged in a wildfire, 
generally for social and economic purposes, such as providing jobs and 
timber supply for local mills, and possibly providing revenues to the 
federal agencies. As a tool for post-fire restoration, salvage logging 
is controversial for a variety of reasons. People in various fields of 
science disagree over the range of impacts of post-fire logging, 
including possible adverse environmental impacts due to the logging 
activity and increased fuel loads from post-logging slash. There are 
fundamental differences in how we define the value of a stand of burned 
trees, and about the appropriate function of a roadless area. Those 
differences directly affect what we think should happen after a fire 
and how fast it should happen.
    In the mid-90s, when representatives from rural communities were 
committed to working in the forest in the face of scientific 
uncertainty and social distrust, they heeded the advice to ``start 
small, go slow'' and to ensure learning and corrective action. You are 
looking today at examples of wildfires and how people responded to 
them, but, of course there are other examples that proceeded quite 
differently; we are touching the proverbial elephant.
    In our search for identifying best practices and building common 
ground, I offer the following suggestions:
Start at a scale that most stakeholders find acceptable or on the edge 
        of comfort, and build experiences of success.
    The increased frequency of fires and the convergence of multiple 
fires into large acreages, as happened in the Biscuit creates 
opportunities for potentially large revenue streams and projects. 
Unfortunately, in my region, people question the agencies' ability to 
complete non-commercial post-fire restoration as effectively as they 
complete salvage logging. One way for land managers to rebuild the 
necessary support for restoration after disturbance events is through 
projects that are at a scale that people feel comfortable with, can 
monitor and consider successful.
    A good example from my region is the Forest Service's first 
``Proposed Action'' for the Biscuit Fire area that came within ten 
months of the fire. It suggested logging 55,518 mbf from 4,029 acres 
without entering Inventoried Roadless Area or Late Successional 
Reserves (Table ES-1; FEIS). That modest post-fire salvage sale, had it 
complied with the environmental laws would have provoked far less legal 
and social conflict and could have been done with a more appropriate 
allocation of agency resources. The timber sales conducted under 
Categorical Exclusions on the Biscuit Fire this year removed Hazard 
Trees and fire line trees; they were monitored by environmentalists, 
but not challenged, despite alleged violations.
    Had county and timber industry representatives not intervened with 
Dr. Sessions' study and the Administration redirected the project, it 
would have served as an important opportunity to realize revenue 
quickly, conduct limited rehabilitation, and allow the area to restore 
itself.
Maintain existing NEPA requirements for public participation and 
        analysis of post-fire projects.
    Projects developed under existing regulations and properly 
administered are cheaper and more effective than those proposed under 
regulations designed to truncate scientific analysis. Often delays and 
increased costs are blamed on ``excessive'' regulations and ``analysis 
paralysis.'' In fact, delays and increased costs often result from 
agency project proposals that are not scientifically defensible. If 
projects are defensible based on their science, they are also likely to 
be more easily arbitrated on their values.
    Ignoring or out-maneuvering opponents doesn't eliminate the issues; 
it fuels social conflict. In the case of the Biscuit Fire project, 
local newspaper headlines are already reinforcing this conflict. The 
kind of conflict that can be sustained in a big city like Washington 
DC, tears at the fabric in communities like Ashland and Cave Junction.
    The Administration has made recent, significant changes to rules 
affecting the public's right to participate in management activities. 
We need time to try the additional categorical exclusions, emergency 
exemptions, and modified access to the courts without having those 
changes coupled with overly large projects that stimulate concerns 
about forest and watershed degradation. Fire brings its own set of 
changes and stresses; it is vital that your decisions and that of the 
Administration empower citizens to work out problems on the ground 
together.
Develop restoration goals through plans developed at the local level.
    The best way to develop broadly supported restoration goals is 
through collaborative processes at the local level where there is 
opportunity for all stakeholders to be involved. Authorities for 
``community wildfire protection plans'' in the Healthy Forests 
Restoration Act establish a local planning process through which 
communities have a strong voice in prioritizing where on the forest 
landscape fuel-reduction projects should be done and the methods of 
treatment. Generally, I believe, these authorities were intended for 
pre-wildfire treatments, to reduce fuel loads and protect communities 
and watersheds from wildfire risk. However, questions regarding post-
fire restoration goals should also be dealt with through an open, 
community-based planning process, such as that envisioned for community 
wildfire protection plans.
Direct agencies to maintain a firm check and balance on ecological 
        protection where economic- and time-driven post-fire salvage 
        logging is implemented.
    Prescriptions for active restoration should be clearly related to 
the factors that limit ecosystem recovery and integrity. Under the NW 
Forest Plan, not all land is managed for its commercial value; the 
agricultural model of salvage logging immediately after fire, 
suppressing competitive vegetation with herbicides, and replanting is 
not appropriate on all Federal forest areas.
Create mechanisms that ensure that the non-commercial restoration work 
        is completed at the same level of performance and timeframe as 
        commercial restoration work.
    While there may be few practices that can be applied to all post-
fire forest restoration, the scientific literature appears to be 
consistent on the point that slash from logging or post-fire logging 
intensifies the impacts of fire in those areas and must be promptly 
removed from the system. A December 8, 2003 Los Angeles Times article 
``Dead Trees Fail to Bring Life to Forest,'' highlights problems that 
federal agencies face in our region obtaining sufficient bids on post-
fire salvage sales and in producing revenues that ensure that slash 
left from logging is treated, and that other non-commercial restoration 
goals are met.
    The Congress and Federal land managers promised pre-commercial 
thinning that was not delivered after high-grade logging in the 1970-
1980s. The agencies must earn back the public's trust that it will 
complete non-commercial work after the big trees are removed.
Create incentives for post-fire restoration work that is accessible to 
        people in nearby towns, while avoiding the creation of a new, 
        fire-dependent industry
    Community-based and non-profit organizations engaged in forestry 
and restoration work try to create or package natural resource-based 
jobs for rural people that are year-round and closer to home. Projects 
that support long-term capital investment, provide family wage jobs, 
and produce resource flows for value-added markets allow residents in 
rural towns to remain there. David Schott, the new Executive Director 
of Southern Oregon Timber Industries Association, stated that industry 
will not hire new workers to harvest the Biscuit volume, but will 
redirect existing employees from other volume while Biscuit is being 
cut.
    In December of 2003, the LA Times reported that in 2002, salvage 
harvests made up nearly half the timber volume cut in California's 18 
national forests. It is logical to examine the potential for salvage 
logging to pay for post-fire restoration in certain situations, however 
attempts to realign the agencies' administrative and legal systems to 
rely on and expedite fire-dependent timber production off national 
forests falls short of the goals that community groups hold in the 
following ways:
    <bullet>  It fails to produce a predictable resource flow, 
reflecting more the boom-bust industry model, especially for smaller, 
less mobile companies;
    <bullet>  It can create unintended ecological consequences;
    <bullet>  It will fuel social conflict because the ecological 
stakes are perceived to be higher when the forest is in a recovery 
mode.
Fund and support multi-party monitoring of post-fire restoration
    Multi-party monitoring processes that include multiple stakeholders 
in the design, implementation and analysis of feedback provide venues 
for the questions and disagreements to be articulated and addressed. It 
assures that diverse perspectives are brought into potentially 
contentious processes, and in so doing can reduce conflict by reducing 
appeals and increasing trust building. Multi-party monitoring is a key 
tool for shared learning among stakeholders and with the agencies. 
However, it remains under-funded and under-prioritized.
Ensure that post-fire salvage logging is assessed on the basis of both 
        the cost and return to the government and that its purposes are 
        clear--as part of a restoration strategy.
    The economics of post-fire salvage logging can be complex and 
tenuous. Economic returns are most often referenced to whether or not 
the timber purchaser can cover its costs and realize a profit margin; 
the cost and return to the government should be considered, as well. 
Economic motivations are heavily favored in salvage logging, so the 
public expects that they will be considered across the board. The 
availability of thorough economic information that internalizes 
typically externalized costs helps to address concerns about 
insufficient revenue for non-commercial work and allows people to track 
investments in restoration.
Act carefully relative to post-fire restoration so as not to disrupt 
        the social and financial momentum behind fire hazard reduction 
        and prevention efforts.
    When community organizers started working over a decade ago on 
value-added strategies for the by-products of watershed restoration, 
few expected to do more than reduce the cost of treatment with the 
small trees, hardwoods, etc. We knew that the job required the kind of 
reinvestment we're most familiar with in urban renewal projects and 
that the National Fire Plan is making. We did not expect that post-fire 
restoration would be paid for by salvage logging and feared that if too 
much emphasis were placed on this strategy, the restoration goals might 
be compromised by unanticipated or ``perverse'' economic incentives.
    It is problematic, therefore, that the Forest Service's 
Rehabilitation and Restoration program, the primary program through 
which the agency pursues the National Fire Plan's major goal of post-
fire restoration, has been funded at such a low level over the past 
three years. Congress provided $142 million for this program in FY 
2001, the first year of strong funding for the National Fire Plan. 
Since then, funding has dropped dramatically. The Administration 
proposed to eliminate funding for this program in FY 2004 and has 
requested only $3 million in FY 2005. Our question is if the 
Administration is not requesting funds from Congress for this key 
program, how does it expect to pay for post-fire restoration. We do not 
think its primary strategy should be to pay for restoration with 
revenues from salvage sales.
    Similar questions were asked by stakeholder groups about the 
initiatives to reduce hazardous fuels. The compromises made in the 
process of adopting the President's Healthy Forest Restoration Act 
offer a clear indication of public sentiment towards work on public 
lands; they mark some common ground.
    <bullet>  Focus strong emphasis on doing projects around 
communities;
    <bullet>  Focus on treatments that involved ``thinning from below'' 
i.e., attention to smaller trees;
    <bullet>  Protect old growth forests;
    <bullet>  Participate in local collaboration to ensure public 
involvement and build public trust; and
    <bullet>  Ensure sufficient federal investment to do the projects 
without relying on revenue from timber sales.
    Certainly, the highest level of agreement that we have is around 
reducing the risk of wildfire. Investments in the Forest Service's 
State and Private Economic Action Programs contributed critical support 
for raising communities' capacity to plan, fund, and coordinate fuels 
reduction. The implementation of the National Fire Plan primed the pump 
for on-the-ground results and vital interagency partnerships, leveraged 
investments by private landowners, and created jobs. Since early 
treatment of fire risk is the most cost effective approach to our 
situation, people are counting on the longevity of the National Fire 
Plan. The Healthy Forest Restoration Act holds the potential to build 
on this work if the resources authorized are allocated.
Summary
    Restoration of intensely burned forests involves far more 
ecologically and operationally sensitive components than implementing 
management strategies that focus on decreasing the likelihood of fire. 
Our restoration tools and options for intensely burned forestlands pale 
almost into insignificance compared with those available to us with 
intact forest ecosystems.
    There is an impressive level of activity in watersheds across the 
West. It's happening on the slopes, in streams, and in meeting rooms. 
It's making a difference on the landscape and in our communities. The 
social capital that it takes to do this is an expense that doesn't 
appear in budget line items, but it nonetheless requires investment on 
your part. We are partners in this endeavor.
                                 ______
                                 
    Mr. Walden. Absolutely. Thank you for coming all the way 
back. I appreciate it. For all of our panelists, especially 
those from the West Coast, which three of the four are, and the 
fourth one is pretty close.
    Mr. Sessions, I want to start with you on some questions. 
Is it true that the Oregon industry just wants big trees? I 
mean is that what you hear, and what can be done in a post-fire 
environment to provide wood fiber for industry and yet continue 
to provide the snags that are necessary for wildlife and proper 
management?
    Mr. Sessions. Mr. Chairman, that is a big question, but I 
think certainly the Oregon forest industry has restructured 
over the last 15 years, such that the average size log going 
through an Oregon Mill now is less than 10 inches in diameter 
on the small end, probably much less, probably closer to 8 
inches. There are very few mills left in Oregon that will 
process the large logs, and in fact, on our own college forest, 
we have to haul an extra 50 to 100 miles to get our larger logs 
processed.
    What I have tried to comment on is that with the protracted 
Federal process, by the time a sale is implemented, only the 
larger trees have value, and that is why we seem to get caught 
in this no-win situation where the only trees that have value 
then are the larger trees. What I have suggested is if we could 
move more quickly, those smaller diameter trees, those trees 24 
inches and less, really make up the bread and butter of the 
forest industry.
    Mr. Walden. Is it the larger trees that hold the greatest 
value for habitat because they stand longer and therefore 
provide the snag habitat you seek?
    Mr. Sessions. That is correct, that the wildlife biologists 
that I have talked to, they are primarily interested in the 
larger trees, and in fact the rationale is that you want to 
leave the largest trees because those will stand the longest. 
And what you would like to do is bridge the gap until the new 
forest can produce trees of equal size to the trees that are 
there before, and that brings us to restoration. In the Biscuit 
area, those trees of large size will take 200 or more years to 
come back under natural regeneration. If we come in and plant, 
and I am fully cognizant of what my colleague, Steve Thomas, 
said about planting dense plantations, but if we come in and 
plant at reduced densities, but with a sufficient number of 
conifers to reach the goals, that we can reestablish these 
forests 50 to 100 years earlier than would otherwise take 
place.
    Mr. Walden. What effect would that have on the very 
species, the marbled merlet, the spotted owl that we are 
entrusted with trying to safeguard their habitat or restore it?
    Mr. Sessions. Those two species utilize older conifer 
forests, although the owl does depend on its prey, does depend 
on wood rats which do live in some younger forests, but I would 
say that restoring the green trees as quickly as possible will 
provide for their long-term habitat for the owl and the merlet.
    There are other species though, for example, the 
woodpeckers, they depend on dead trees. The question is, what 
is the appropriate amount of dead trees to leave? What are the 
appropriate restoration activities to get the large green trees 
back so they can produce the future dead trees? What materials 
should be utilized for social and economic needs?
    Mr. Walden. That is the question. Who has the answer to 
that? Because that seems to me, given Mr. Inslee's questions of 
the last panel, some I certainly share, of what do we leave 
behind? What do we do we take out? What does the most good to 
the environment, and in my opinion, restores the forest to its 
healthiest state the fastest? Where do we get those answers if 
not from people like you who are certified smart, and on books 
and in universities and spend your life doing this research?
    Mr. Barry. I will venture an answer from the point of view 
of a water utility, which is less concerned with the state of 
the forest than with the state of potential erosion out of the 
forest into the reservoir. So from our point of view, we did 
not spend a lot of time or difficulty deciding what we were 
going to salvage and what we were going to hydro-axe. We did as 
much of both as we could reasonably do under the circumstance, 
because both those measures were important to restore some 
stability to the forest floor and to reduce the erosion as 
quickly as possible.
    There are not any major endangered species--there is a 
Pawnee montane skipper butterfly in the Hayman Fire area, but 
we were reasonably sure that nothing we were doing or failing 
to do was going to have any effect on the butterflies. So we 
simply did everything we could do to reduce erosion as quickly 
as possible.
    I know that does not answer your question. It simply gives 
you a different perspective on how one manager of only 8,000 
acres took care of that problem.
    Mr. Walden. On the Biscuit, Dr. Sessions, you talked about 
4 percent being salvaged, 7 percent being planted. What do you 
think happens to that other piece, that 89 percent that nobody 
touches, versus that which is actively being proposed for some 
sort of management?
    Mr. Sessions. Well, certainly for people not familiar with 
the Biscuit, about half of that area was in wild and scenic 
rivers and in wilderness.
    Mr. Walden. Right.
    Mr. Sessions. That area, under law, will recover naturally, 
although I think we need to be careful what ``naturally'' 
means. Naturally in the climate that we have means a return to 
shrubs and hardwoods with a slow return to conifers.
    Mr. Walden. Slow being what period?
    Mr. Sessions. Slow meaning this 150, 200, perhaps longer 
years, perhaps more years than that to restore the forests that 
were there now. Now, people ask me, well, why doesn't nature 
just do what it did before? But what we need to understand is 
that the physical factors do not remain constant. The weather 
has changed. If you look at a lot of the stands on the Biscuit, 
they were formed in the 1800 to 1900 period when the climate 
was much different than it is now. The current climate favors 
shrubs and hardwoods over the conifers. That does not mean that 
conifers cannot be reestablished or will not be reestablished, 
but it means that if we want conifers back and if we want them 
back quickly, then we will have to take some action.
    So if you ask what is going to happen on the other area? 
Recovery, if you call it recovery, is going to be slow, meaning 
the return of conifer forests. The return of ground cover 
though is going to be relatively quick, that there are going to 
be shrubs and hardwoods.
    Mr. Walden. But if you want a conifer forest you are going 
to have to wait for it. So if this were the Tillamook, if this 
strategy had been applied to the Tillamook--I realize they are 
at different ends of the State--would we be looking at a 
hardwood shrub forest on the Tillamook today as opposed to a, I 
assume, Doug fir forest?
    Mr. Sessions. We would be looking at more of a hardwood 
forest than was there. The forests are a little different. It 
is true that in the Tillamook that a lot of the seed sources 
were burned out, and it may have come back to a shrub land and 
hardwoods for a while, but moisture is not the limiting 
ingredient in the Tillamook, and those conifers would come 
back. It is in the moisture limited areas such as Southwestern 
Oregon, that the ecological succession is very different.
    Mr. Walden. All right. I will stop, having overrun my time 
by a full measure, and turn it over to the Ranking Member, Mr. 
Inslee of Washington.
    Mr. Inslee. I would really like to ask President Roosevelt 
if he would have been a Democrat if he would run today, but I 
don't want to interject any issues, so I will defer that 
question. He was one more step to the donkeys. But in any 
event, Dr. Sessions, could you elaborate on your statement 
about the climate favors non-conifers right now. Is that just 
in their young period, or what do you mean?
    Mr. Sessions. What I mean by that is that the conifers were 
established at really what we would call the latter years of 
the little ice age, which ended somewhere 1850s, 1870s. It is 
just under that particular regime it was easier for conifers to 
get started again. That does not mean that they will not come 
back, but the history is that you need a couple of things. You 
need good seed years. You need spring moisture, and you need to 
have the competition that is not too aggressive, and that 
doesn't happen too often. It could happen that we have a couple 
of good years down on the Biscuit, but last year, if it gives 
any indication, we are not going to.
    Usually after a fire, and if there are some seed sources 
available, most seed will fall within about one tree length, 
and some seed will go out 700 or 800 feet. On a study of the 
Biscuit last summer, where they looked for new seedlings, new 
conifer seedlings, they put in 64 plots. When I say ``they'' 
this is the Northwest Forest and Research Experiment Station in 
OSU, put in 64 plots, totaling a total of 12 acres. You would 
expect that several thousand new seedlings, that might survive, 
but you would expect to find them. They found 39, 39 seedlings. 
So the experience is that if we want those conifer forests back 
in a reasonable time to provide the habitat for those species 
that live in older conifer forests, that we are going to have 
to give them a little help, and the longer we wait, the more it 
is going to cost, and the less resources that we are going to 
have to pay for it.
    Mr. Inslee. If these climate changes continue, are we sort 
of, if not fighting a losing battle, trying to establish a 
flora regime that is just inconsistent with the climate?
    Mr. Sessions. I think that is a very good question, because 
we are going to have--and the Southwest Station, Ann Bartuska, 
if she is still here, could comment on it, because they believe 
that climate change is really, in some sense, much more 
responsible for our current dilemmas in the Federal forest than 
fire suppression, although others beg to differ with them. But 
6 of the 7 climate models predict that most of the Great Basin 
is going to become wetter over the next 40 to 50 years, that 
tree cover is going to increase, as well as this biomass to 
fuel future fires, and that U.S., which has been depending upon 
the wood basket in the Southeastern United States, is not going 
to have it because within 100 years the pine forests of the 
Southeast will return to savanna land.
    Mr. Inslee. Who is making this prediction?
    Mr. Sessions. I am saying of these 7 major climate models 
that are proposed among the meteorologists, that 6 out of 7 of 
those agree that the West is going to become wetter, the 
Southeast is going to become much drier, and that is certainly 
going to influence the distribution of vegetation.
    Now, Congressman, I am not here as a meteorologist. I am 
not here as a climatologist, but I am just saying that you 
asked an interesting question about climate, and there seem to 
be some trends and some agreement about where climate is going. 
Although, I will caution by saying this. I remember when Paul 
Ehrlich came to OSU in the 1970s--and I think we all know Paul 
Ehrlich--Paul Ehrlich said, ``What I am most concerned about is 
that agriculture is going to fail because we are moving into 
the next ice age.'' That is what Paul Ehrlich said in the 
1970s. Now, of course, he speaks a very different tune. So I do 
not how good these climate forecasts are myself.
    Mr. Inslee. You made reference to a group that thought that 
changes in fire is more responsible because of climate rather 
than forest practices. Who is that group?
    Mr. Sessions. If you were to talk with Dr. Connie Millar at 
the Pacific Southwest Research Station--that is Forest 
Service--that she has done a lot of research into this area, 
and she thinks that climate and climate change has been more 
important than suppression in many areas, than what it is given 
credit for.
    Mr. Inslee. I would like to say for the record, she may be 
right, even though I agree with her.
    [Laughter.]
    Mr. Inslee. Thank you.
    Mr. Walden. Seldom does a hearing go by but my colleague 
makes the case that you have made now about climate change 
being responsible for the forest fires. So that will be 
interesting research to see.
    I do not know that I have any other questions at this time, 
but I do appreciate your testimony. This is an issue that I 
hope the Subcommittee can continue to focus, see if we can't 
find some common ground. I am intrigued by the notion that we 
are better to leave the old growths, snags behind, and by 
moving faster you could actually achieve what many people think 
they can achieve best by moving slower. And that if you appeal 
to save old growth, in fact today yo may be moving the pointer 
to only old growth because it is the only stuff with value left 
at the end, and maybe moving faster you protect the old growth 
snags which is better for habitat, and meanwhile get out the 
salvageable timber that is better for the industry. So maybe we 
can find some common ground there. I don't know. We are going 
to continue to work on it.
    Any final comments from the panelists before we adjourn? 
Yes, Councilor?
    Ms. Hartzell. I was just going to state, the question about 
trying to find solutions that will hasten it is sort of a 
Catch-22 with the analysis because we know that there may be 
some transferable scientific direction and practices, but much 
of it does need to be site specific and situation specific, and 
at the same time, you can't do that and move fast. I mean 
hopefully we can improve on what we do, but there is the 
necessity of making sure that our analysis is based well as we 
move forward. I just had wanted to point that out.
    Mr. Walden. There is no disagreement there.
    Yes?
    Mr. Barry. Just one quick comment about climate change, I 
probably lose more sleep about the prospect for climate change 
than anything else, because as a water utility your life rises 
and falls on what the snowpack is for us. While I certainly 
believe that climate change is a fact, what isn't a fact and 
what people cannot predict, even the 5 models that Mr. Sessions 
referred to give different results, they don't tell you what is 
going to happen to precipitation.
    What we think we know is that precipitation may be more 
variable, but we cannot tell you where it is going to be, where 
it is going to fall and where it isn't, and therefore, I 
continue to persist in the belief that the only assumption I 
can make is that the future will be pretty much like the past. 
I have decreasing faith in that assumption, but I don't have 
anything to replace it with. So I continue to predict reservoir 
content, snowpack, runoff, et cetera, on the basis that it will 
be pretty much like the past. Even as I do so, I know that I 
could be wrong, but I don't have anything to substitute for the 
assumption.
    Mr. Inslee. Can I make one comment?
    Mr. Walden. Sure.
    Mr. Inslee. I just want to vigorously disagree. We do know 
where precipitation is going to occur. It is going to occur at 
any outdoor political event that we schedule before August 
12th.
    [Laughter.]
    Mr. Walden. So just let us know where you need water.
    Dr. Sessions?
    Mr. Sessions. Yes. I would like to--there was a question 
earlier about separating salvage and planting.
    Mr. Walden. Yes.
    Mr. Sessions. And I did want to comment on that. As the 
supervisor from the Tahoe said, it is a question of risk, that 
you can undoubtedly plant new conifers. They will have to 
compete with the brush. You need to ask yourself how is it that 
you are going to ensure that they survive? We only have two 
ways of doing that. We either come in manually to release, to 
give more growing space to the conifers, or we use herbicides.
    Now, if you are going to send men in or women to clean 
these areas to hold back the brush, it is very, very dangerous 
among the standing dead material. Second, these areas have 
return intervals of, say, 30 to 40 years on fire. If fire 
returns to these areas, no crew boss is going to send in people 
to build fire line among the standing snags. And third, all of 
the standing deal material is coming down sometime, and when it 
does come down, it creates more fuel, so that if a fire comes 
by it is going to burn more intensely, and when we have these 
fires burning through large dead material, they don't burn 
through any faster, but they take longer, and when they take 
longer, the soil, which is a good insulator for a while, 
finally lets the heat down and you can burn down through the 
litter, down through the duff, and even change the chemistry of 
the soil particles themselves, sterilizing the soil for long 
periods of time.
    So there are a number of reasons about if you want to 
restore forest, that you need to consider dealing with the 
standing dead material. That doesn't mean remove it all, but it 
means managing it so that the risks are acceptable. Thank you.
    Mr. Walden. Is there a scientific template for different 
stands for what you should leave behind and what you should 
take out in a post-fire environment?
    Mr. Sessions. In listening to the wildlife biologists, 
there are. That given, depending on what wildlife is in the 
area, if we are talking about wildlife, there are guidelines, 
but it is generally leaving those snags that are largest and of 
a species that will persist the longest until the new forest 
can recover.
    That leaves some leeway because you could also, by choosing 
appropriate management action, move in and bring the new forest 
back much more quickly. I went through this with Jerry Franklin 
when Jerry came out to talk at our university, and I asked 
Jerry, ``Jerry, isn't it true we could bring back those trees 
much more quickly?'' And Jerry said, ``We can, but I don't want 
to.'' And I asked Jerry why is that? And he says he believes 
that what we are shortest of on the West Coast is early seral 
stage, naturally occurring early seral stage, so we have to 
decide what it is we want.
    Mr. Walden. Can you for us novice U of O grads, can you 
explain early seral stage? What are we talking about? Is that 
brush? Is that the alder?
    Mr. Sessions. We are saying--yes, it is having a lot of 
large woody debris, a number of snags, letting brush, 
hardwoods, whatever wants to come back. When I talked to Jerry 
about Mr. St. Helens, he believes that eruption is one of the 
best things that has happened here on the West Coast. Others 
differ, but he look at that naturally occurring early seral 
stage after Mt. St. Helens and it is true that certain bird 
populations have improved, but there have been a number of 
other species that have not, and there needs to be an 
appropriate mix of restoration actions taken.
    Mr. Walden. We will go to Mr. Thomas, and then one final 
comment from anybody, and we will wrap up.
    Mr. Thomas. Just two follow-ups. One, I agree with Dr. 
Sessions. I think there is some information out there in terms 
of the amount of down wood, the amount of snags, number of 
large trees that we are using. They are built into our forest 
management plan for State-owned forests, and so I think that 
information is there. Perfect answers, probably not, but we 
certainly have some good guidelines.
    Second, just for instance on our plan, we are looking at a 
landscape level. We have 550,000 acres. We are estimating the 
10 to 15 percent would be in regeneration or early seral stage, 
so as you work across the landscape, there is some desire to 
have a certain portion of your forest in that condition because 
that is what you would have expected through blowdown, through 
disease, through fire and a variety of other events that would 
have occurred if we weren't here. So there a number of ways to 
manage that process. And can one landowner, say on the 
Tillamook, if we could afford 150,000 acres in early seral 
stage, well, probably not. That wouldn't meet our goals and 
objectives, so you have to look at it kind of on a landscape 
basis. Thank you.
    Mr. Barry. I just want to give a very quick nonscientific 
way to approach the question you asked. I agree with Professor 
Sessions, we did not choose to have a lot of standing dead 
timber left on the 8,000 acres we owned. We didn't want to 
leave the standing dead timber, but we couldn't cut it all. We 
cut or salvaged or hydro-axed as much as we could, and what we 
couldn't do was because of the geography, the steepness of the 
slope, the rock outcrops, et cetera. That is what got left. We 
didn't apply any scientific formula, but we know that probably 
30 or more percent of the standing dead timber that was once 
there is still there because we can't get to it. And under the 
spur of the moment, that was as good a way to decide what got 
left and what didn't, was what can you get to?
    Mr. Walden. All right. We want to again thank you for your 
time and energy into this hearing, your testimony, your 
comments. We appreciate it. It helps in our efforts.
    The record will stay open for 10 days for anyone who wants 
to submit additional comments for our record. As I say, we will 
be conducting some field hearings, and hopefully members of the 
Committee will be able to attend some of those as well, and 
maybe we can find some way to move forward on this issue.
    With that, the Committee stands adjourned. Thank you.
    [Whereupon, at 1:45 p.m., the Subcommittee was adjourned.]

    The following information was submitted for the record:

    [A statement submitted for the record by Laura McCarthy on 
behalf of The Forest Guild follows:]

            Statement of Laura McCarthy for The Forest Guild

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to provide this written statement on restoration of forests 
after catastrophic fire. I am the Policy Program Director for the 
Forest Guild, an organization of foresters and natural resource 
professionals based in Santa Fe, New Mexico. The Guild has a membership 
of about 500 foresters and natural resource professionals who manage 
over 41.4 million acres in the United States and Canada. The Guild's 
mission is to promote ecologically responsible forestry with active 
management to sustain the entire forest across the landscape.
    This statement about the restoration of forests after catastrophic 
fire is derived from the experience of our member foresters, who spend 
most of their workdays planning and implementing timber sales. We are 
pleased to provide this statement because the issue of how to manage 
forests after catastrophic fire illustrates perfectly how the Guild's 
principles are put into practice.
    The Oregonian recently published an editorial that echoes the 
principles of Guild members. Jack Williams, who was formerly the Forest 
Supervisor of the Siskiyou National Forest and is now a professor at 
Southern Oregon University, wrote the editorial. Mr. Williams suggested 
that a goal of a post-fire operation should be to determine the level 
of salvage that will produce net economic values in a timely manner 
without risking long-term harm to the land and water. The decisions 
about where and how much to salvage are key to achieving this goal. For 
members of the Guild, the optimal salvage level is determined by using 
ecological information as screens to filter out lands where salvage 
would impair ecosystem recovery. The screens usually remove from 
consideration lands with high erosion potential, steep slopes, and 
stream habitat, as well as roadless areas. Operational constraints are 
also factored in, such as road access and endangered species habitat.
    The use of science in forest management is claimed by many, but 
demonstrated in practice by the forestry of Guild members. For example, 
the February 2004 issue of Science has an article by seven renowned 
ecologists on salvage harvesting after natural disturbance. The 
ecologists make three main points backed up by national and 
international data. First, salvage harvesting activities undermine many 
of the ecosystem benefits of major disturbances such as wildfire. 
Second, removal of large quantities of timber can have negative impacts 
on many plant and animal species. Third, salvage logging can impair 
ecosystem recovery. The scientists conclude that large-scale salvage 
harvesting needs to happen quickly after a wildfire and, since managers 
are making rapid decisions with long-lasting ecological consequences, 
salvage harvesting policies should be formulated before major 
disturbances occur. Guild foresters use this kind of scientific 
information to plan and implement timber salvage.
    For example, the 2002 Borrego Fire in New Mexico illustrates how a 
Guild member put the information into practice. The Borrego Fire burned 
out of the Santa Fe National Forest onto private land. A Guild member 
managed the private land, and had recently completed a fire management 
plan for the landowner. The plan included an assessment of the extent 
and location of hazardous fuels, a plan to remove fuels with mechanical 
thinning and prescribed fire, and other information that was critical 
for planning a salvage sale. The plan made it possible for the forester 
to determine where salvage logging would be appropriate, and where it 
needed to be prohibited to protect the recovery of the forest. Within a 
few months of the fire, burned trees, cut in areas that did not harm 
the prospects for ecological recovery, were delivered to the mill.
    The Guild believes that the management of forests after large-scale 
fire events needs to be considered in the context of the entire 
landscape. Dr. Tom Swetnam at the University of Arizona's Laboratory of 
Tree Ring Research has discussed the idea of using the large 
catastrophic wildfires, such as Rodeo-Chediski and Biscuit, as 
templates for restoration of forests at a landscape scale. For example, 
severely burned areas, which usually account for about 25% of the area 
within the fire perimeter, are already acting as a fire break for the 
remaining green forest and for communities in the vicinity. If these 
areas are maintained as fuel breaks, then salvage logging on stable 
soils and gentle slopes and where roadless areas and endangered species 
habitat are not involved, could be recommended. The moderately burned 
areas will probably need fuel inventories and follow-up treatments 
that, depending on the fuel load, could include some timber salvage. 
Finally, the stage will be set to restore the low severity and unburned 
areas, in both structure and process, with the fuel breaks serving both 
to protect communities and to establish a landscape pattern for 
recovery of the forest.
    In conclusion, the Forest Guild is not categorically opposed to 
salvage logging because its members have demonstrated that ecological 
constraints can be successfully applied to timber salvage operations 
after wildfire. The key considerations are how much is harvested, where 
trees are cut, applying the necessary environmental, social and 
economic constraints, and timing the operation. When making these 
decisions, the Forest Guild always considers the well-being of the 
forest first. The Forest Guild offers the following guidelines for 
salvaging burned timber:
    1.  Salvage timber at the level that will produce net economic 
values in a timely manner without risking long-term harm to the forest 
ecosystem.
    2.  Only salvage the trees that can be removed in the short-term 
without harming the prospects for long-term ecological recovery.
    3.  Do not salvage burned timber in roadless areas, on steep 
slopes, on highly erosive soils, or in stream corridors and use 
existing road systems for access. Avoid salvaging timber where the sale 
will compromise the protection of endangered species.
    4.  Develop timber salvage plans in the context of a larger 
wildfire restoration plan. For example, salvage trees in burned areas 
that will be managed in the future as fuel breaks that provide 
community protection.
    5.  Add planning for salvage logging to community wildfire 
protection plans that, under the Healthy Forests Restoration Act, 
consider broad forest landscapes, enabling land managers to salvage 
timber appropriately if wildfire occurs.
                                 ______
                                 
    [A letter submitted for the record by Anton R. Jaegel, 
Supervisor elect, Trinity County, California, follows:]

July 9, 2004

Congressman Greg Walden
Chairman, Subcommittee on Forests and Forests Health
Committee on Resources
U.S. House of Representatives
Washington, D.C. 20515

Dear Chairman Walden:

    I would like to offer the following for your hearing on Salvage 
scheduled for July 15th, 2004.
    I am County Supervisor elect in Trinity County, California. The 
Shasta-Trinity National Forest comprises 75% of our 2.1 million acres. 
Our forests are among the most fire dependent in the state and are in 
serious overstocked condition. Many large fires have burned here in the 
last 20 years. In 1987 a dry lighting event started fires that burned 
over 100,000 acres. Most of that acreage we were allowed to salvage and 
used the KV and BD funds created by that salvage for reforestation.
    Some areas we were not allowed to salvage and replant due to 
objections from the environmental community and a court injunction in 
the 9th Circuit. The case was never heard but was withdrawn because the 
judge tabled the hearing for two years and made the project moot.
    However, it did leave a fuel load of over 150 tons per acre in the 
untreated areas. One of those areas, Grouse Prairie, re-burned in 2003. 
Even though it was late in the fire season and the humidity levels were 
high, this fire was uncontrollable. Imagine large standing dead trees, 
some dead fallen trees and twenty years growth of deer brush and 
manzanita.
    The trees would burst into flame just from the heat generated from 
other snags 40 ft. away. We could not put men or equipment into fight 
the fire because of the extreme danger from snags and this leap-frog 
effect. When they tried to used bomber and retardant they found the 
snags were not affected because there were no branches left to catch 
the slurry. So they dropped back to an area with a plantation on it 
from a successfully implemented salvage sale from the 1987 fire, put a 
line around the fire, and stopped it. The ground looked like a moon 
scape. Very high intensity fire had burned to mineral soil. Recovery 
will take eons. Suppression costs exceeded $2 million.
    If the area had been salvaged, the fuels treated, and reforested 
the fire could have been controlled with one engine and its crew.
    In 1998, the Big Bar complex burned another 100,000 acres and since 
then we have had six major fires in our county, four of which burned to 
the edge (and sometimes through the edges destroying homes) of our 
communities. None of these fires have been cleaned up.
    As a volunteer fire fighter and member of the Board of Directors of 
our local fire department and now Supervisor elect for our county, I am 
gravely concerned about this explosive fuel load sitting next to our 
towns. Who will take the responsibility when these fuel loads 
(violating the forest plan standards) lead to destruction of our homes 
and livelihoods? I know who will be put at risk trying to save our 
communities. Forest Service fire fighters and local volunteers deserve 
better consideration.
    We need to stop the endless rhetoric and political agendas and work 
together to solve this problem. Threats of appeals have stopped the 
agencies from even proposing to clean up after these fires. It is not 
only an economic waste in terms of salvage value, but it is also 
creating a terrible fire risk to our natural resources and our 
communities.
    Please examine the relationship between salvage and restoration. 
Insure that any salvage that is implemented results in fuel loads below 
the forest standards, and insist the areas in the wildland urban 
interface are treated immediately after the fire. We believe post fire 
recovery plans must include salvage, fuels reduction and reforestation.
    I am including pictures of the Grouse Prairie fire and photos of 
some of the conditions that exist today near our towns. I have an 
abundance of specific information on this situation and would gladly 
share it with you.
    We are asking the House, the Senate, and the Administration to work 
together to make sure the tools, the resources, and the leadership are 
available to restore our forests, reduce the fuel load created by stand 
replacing fires, and protect our forest.
    Thank you for the opportunity to comment.

Respectfully,

Anton R. Jaegel
Supervisor elect
Trinity County, California

[NOTE: The pictures included with Mr. Jaegel's letter have been 
retained in the Committee's official files.]

                                 <all>

</pre></body></html>
